<html>
<title> - IMPLEMENTATION OF THE DEPARTMENT OF THE INTERIOR'S LAND BUY-BACK PROGRAM</title>
<body><pre>[Senate Hearing 113-354]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-354

 
   IMPLEMENTATION OF THE DEPARTMENT OF THE INTERIOR'S LAND BUY-BACK 

                                PROGRAM
======================================================================


                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 11, 2013

                               __________

         Printed for the use of the Committee on Indian Affairs





                  U.S. GOVERNMENT PRINTING OFFICE
86-971                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                      COMMITTEE ON INDIAN AFFAIRS

                 MARIA CANTWELL, Washington, Chairwoman
                 JOHN BARRASSO, Wyoming, Vice Chairman
TIM JOHNSON, South Dakota            JOHN McCAIN, Arizona
JON TESTER, Montana                  LISA MURKOWSKI, Alaska
TOM UDALL, New Mexico                JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                MIKE CRAPO, Idaho
MARK BEGICH, Alaska                  DEB FISCHER, Nebraska
BRIAN SCHATZ, Hawaii
HEIDI HEITKAMP, North Dakota
        Mary J. Pavel, Majority Staff Director and Chief Counsel
              Rhonda Harjo, Minority Deputy Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 11, 2013................................     1
Statement of Senator Cantwell....................................     1
Statement of Senator Tester......................................     7

                               Witnesses

Greene, Hon. Timothy J., Chairman, Makah Tribal Council..........    14
    Prepared statement...........................................    15
Not Afraid, Jr., Hon. Alvin, Treasurer, Montana-Wyoming Tribal 
  Leader Council.................................................    16
    Prepared statement...........................................    17
Roberts, Hon. Lawrence, Principal Deputy Assistant Secretary, 
  Indian Affairs, U.S. Department of the Interior................     2
    Prepared statement...........................................     4
Stafne, Hon. Grant, Councilman, Assiniboine and Sioux Tribes of 
  the Fort Peck Reservation......................................    19
    Prepared statement...........................................    21

                                Appendix

Berrey, Hon. John, Chairman, Quapaw Tribe, prepared statement....    45
Coalition of Large Tribes, prepared statement....................    29
Fort Belknap Indian Community, prepared statement................    41
Oglala Sioux Tribe, prepared statement...........................    34
Sanders, Helen, Allottee and Jim Harp, Chairman, Allottees 
  Association and Affiliated Tribes, Quinault Reservation, joint 
  prepared statement.............................................    33
Written questions submitted for the record.......................    47


   IMPLEMENTATION OF THE DEPARTMENT OF THE INTERIOR'S LAND BUY-BACK 
                                PROGRAM

                              ----------                              


                      WEDNESDAY, DECEMBER 11, 2013


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:26 p.m. in room 
628, Dirksen Senate Office Building, Hon. Maria Cantwell, 
Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    The Chairwoman. We will now to go to a second oversight 
hearing on the implementation of the Department of Interior's 
land buy-back program. This hearing is to dovetail with our 
last hearing, which was about the fulfilling of the promise of 
the Indian Reorganization Act in restoring 90 million acres of 
land that was lost as a result of failed Federal allotment 
policies and assimilation.
    The Federal allotment policy created a situation where 
lands were allotted to individual Indians and as those lands 
were passed down through generations of families, the number of 
co-owners in a single tract of land grew exponentially. Each 
individual owner's interest grew smaller and smaller, and now 
over 90,000 tracts of lands in Indian Country and over 10,000 
acres have multiple owners.
    These single tracts of land can have tens, hundreds or even 
thousands of co-owners. This severe fractionation of land has 
led to the land going undeveloped as it is nearly impossible 
for an owner to get consensus with other co-owners on its use 
in productive ways.
    Since 2006, the Department estimates over 45,000 tracts of 
fractionated land have generated no revenue for their owners. 
Additionally, the majority of these fractional interests are so 
small that even when the land is developed, the owners are only 
receiving a few dollars per year. While the Department has had 
a program under the Indian Consolidation Act to purchase and 
consolidate these interest programs, it has been woefully 
underfunded. Additionally, many tribes, including the Fort Peck 
Tribes, have established their own consolidation programs, 
using their own resources.
    The Cobell Settlement is the latest effort by the Federal 
Government to resolve the problems of the fractionation and 
allow tribes to make use of those lands. The Department of 
Interior buy-back program was established as part of the 
historic Cobell v. Salazar settlement agreement, which was 
ratified through Congress on the Claims Resolution Act of 2010. 
This Act created $1.9 billion in funds to purchase these 
fractional interests. This significant investment will bring 
sufficient resources to these small, fractional interests and 
reduce the number of owners in any given tract.
    Further, the program calls for giving these interests back 
to the tribe. This will allow money to be used for the benefit 
of the entire community. Moreover, individuals who are willing 
to sell their fractional interests will be provided fair market 
value. Thus, the $1.9 billion of investment is intended to 
directly benefit individual Indian tribal members and the 
larger tribe.
    The Department is required to carry out the buy-back 
program and distribute this $1.9 billion within 10 years. That 
10-year period began on November of 2012, when the Cobell 
settlement was finally approved by the Federal courts. It has 
now been one year, and so it is prudent to check in on what 
that development has been within the Department and to see how 
it is progressing.
    The Committee is aware that no purchases have yet been made 
by the program, and the success of the program can be measured 
in many ways, but obviously one metric is how much of the $1.9 
billion has been spent and how many parcels have been 
purchased.
    To be on track to expend the entire fund the Department 
would have to, on average, do $190 million in purchases over 10 
years. But we now have lost one year. So understandably, 
various people of tribal communities are concerned and want to 
hear about how the program is going to fulfill its mission in 
such a short time period.
    This program seems to be a winning solution for everyone: 
the individuals, the tribes, the Federal Government. However, 
to be successful, it needs to make these purchases happen. So 
today the committee hopes to learn how the Department will do 
that and anything else the committee can do to help make sure 
this legislation has been implemented and this law is 
successful.
    So I would like to welcome Mr. Roberts, who is the 
Principal Deputy Assistant from Indian Affairs, from the 
Department of Interior, and ask him for his statement.
    Welcome, Mr. Roberts.

         STATEMENT OF HON. LAWRENCE ROBERTS, PRINCIPAL 
       DEPUTY ASSISTANT SECRETARY, INDIAN AFFAIRS, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Roberts. Thank you, good afternoon, Chairwoman 
Cantwell, Senator Tester. Thank you for the opportunity to 
provide the Department of Interior's statement at this 
oversight hearing on the implementation of the buy-back 
program.
    As the Chairwoman noted, approximately a year ago, the 
Department established the land buy-back program to work 
collaboratively with Indian Country with both tribes and 
individuals to realize this historic opportunity. Congress 
provided the $1.9 billion to purchase individual interests at 
fair market value from willing sellers. The key to this is that 
every acre purchased through this program will be held in trust 
and restricted status directly for tribes. It is this important 
work that the Department feels very strongly can only succeed 
with collaborative involvement of tribal leaders and their 
communities.
    As sales occur, the program will contribute part of the 
fund, up to $60 million, to the Indian Education Scholarship 
Fund. We are on track to send our first offers to purchase 
fractional interests by the end of 2013.
    So I want to take a brief moment to acknowledge the work of 
Deputy Secretary David Hayes. He was a key participant in 
achieving the settlement. Deputy Secretary Hayes was personally 
involved in the program until his departure at the end of June 
of this year. And his leadership really helped to steer the 
framework of the program that is based on essentially four 
pillars.
    The first pillar is collaboration. We know that the success 
of the program really depends on tribal leaders leading the 
effort. For that reason, it is important to work closely with 
tribal governments and for tribal governments to perform 
outreach efforts and to implement as much of the program as 
makes sense and is possible, given our resources.
    Providing the assistance and outreach and information to 
individual owners is vitally important to the process. Through 
the successful leadership of tribal leaders, this program has 
the opportunity to expand tribal sovereignty by returning lands 
to tribes and essentially undo the harms that were forced on 
tribal communities through the allotment policy.
    Another pillar that is key to the program is transparency, 
consultation and flexibility. So our aim is to work in as 
transparent a manner as possible, because not only of the 
importance of the program to tribes, but to ensure that the 
taxpayers know that the money is being spent carefully and 
wisely.
    And so when the Cobell settlement was finalized last year, 
in November, the following month the Department established a 
program and released an initial implementation plan. The 
release of the initial implementation plan is important, 
because rather than just going forward with a plan and saying, 
this is how the Department is going to move forward, we 
consulted with tribes in January and February of 2013 and 
received comments on the implementation plan.
    We have developed a framework for cooperative agreements 
through assistance of many tribes, including the Coalition of 
Large Tribes, COLT, which played a role in helping us develop 
the framework for cooperative agreements. We have issued press 
releases as we have moved forward on a number of matters, 
including the establishment of base payments, the issuance of 
evaluation plans, our revised implementation plan based on the 
comments that we received from tribes. We have announced our 
first cooperative agreement last week, and we are on track, as 
I said, to make purchases by the end of this year.
    Efficiency, a third pillar of what we are looking at here, 
it is our goal to maximize the impact of the finite amount of 
money that we have, given the amount of time that we have to do 
so and the resources that we have been entrusted to address the 
problem. So first, what we need to do is we need to move 
quickly to each reservation. We have 150 reservations with 
fractionated interests. And we have to move fast. Appraisals 
are only good for a limited amount of time. We have to ensure 
that the appraisals and the offers go out soon thereafter.
    So we have heard from all tribes that they want us to 
implement the program as broadly as possible. We agree with 
that. But we also have to move quickly. It doesn't mean that we 
can spend 10 years at a single location or five years at a 
single location. We need to move the process through quickly.
    Secondly, we decided to use a creative but sound methods to 
maximize the value of the limited funds, such as mass 
appraisals where appropriate.
    And the last pillar that we have been working under is, 
essentially, good governance. We have had a strong governing 
structure internally, including an oversight board that is 
comprised of the Solicitor, the Deputy Secretary, Assistant 
Secretary Washburn, the Office of Special Trustee, and that 
board reviews all the decisions of the program. During these 
meetings, these occur more than once a month, we have had 
robust conversations and frank discussions about what we have 
learned during consultations and in meetings with individual 
tribes as we are moving forward.
    While the governance process may have caused us to move a 
little bit more slowly on occasion, given that this is a major 
program with significant decisions, we think that they need to 
be addressed through deliberation. We have been entrusted with 
the ability to spend $1.9 billion. We need to do it quickly but 
prudently. I think that is the sort of balance that we are 
striking.
    We are getting a good structure in place, and that is 
acutely important.
    I will conclude by saying what Assistant Secretary Washburn 
has often stated, and that is that tribal leaders are going to 
really decide the success of this program. They are the ones 
that are going to be most persuasive in their communities on 
how the transfer of that one individual's interest and land is 
going to impact tribes and have a lasting impact on future 
generations.
    So we are extremely excited about the opportunity in the 
program to work with tribes. And I want to thank you for the 
invitation to testify today. I am happy to answer any questions 
that you have.
    [The prepared statement of Mr. Roberts follows:]

Prepared Statement of Hon. Lawrence Roberts, Principal Deputy Assistant 
       Secretary, Indian Affairs, U.S. Department of the Interior
I. Introduction
    Good afternoon, Chairwoman Cantwell, Vice Chairman Barrasso, and 
Members of the Committee. Thank you for the opportunity to provide the 
Department of the Interior's (Department) statement at this oversight 
hearing on ``Implementation of the Department of the Interior's Land 
Buy-Back Program.''
    In 2010, Congress enacted historic legislation to ratify and 
confirm a settlement between Plaintiffs and the Administration in the 
Cobell litigation. The Claims Resolution Act set the framework to help 
reverse the fractionation of Indian lands that was set in motion under 
repudiated policies of allotment and assimilation.
    Approximately a year ago, the Department established the Land Buy-
Back Program for Tribal Nations to work collaboratively with Indian 
country, both tribes and individuals, to realize the historic 
opportunity. Congress provided a $1.9 billion Trust Land Consolidation 
Fund to compensate individuals who willingly choose to transfer 
fractional land interests to tribal nations for fair market value. 
Every acre purchased through this Land Buy-Back Program will be held in 
trust or restricted status for Tribes. This important work can succeed 
only with the collaborative involvement of tribal leaders and their 
communities. As sales occur, the Program will contribute part of the 
Fund (up to $60 million) to the Indian Education Scholarship Fund. We 
are on track to send our first offers to purchase fractional interests 
by the end of 2013.
    Fractionation of land ownership is a prevalent problem on many 
Indian reservations, locking up resources over many years. 
Fractionation is depicted in maps of Indian country that resemble a 
complicated jigsaw puzzle. It spurs the maintenance of elaborate 
records for tiny slivers of land interests and affects more than 150 
reservations across Indian country where tracts of land often have 
hundreds, sometimes thousands, of owners. There are 2.9 million 
purchasable fractional interests owned by more than 243,000 
individuals. Approximately 90 percent of the purchasable fractional 
interests are located within 40 reservations. Fractionated properties 
often go unutilized--hampering efforts to alleviate serious issues such 
as poverty and unemployment. The Buy-Back Program is one tool that can 
help remedy the harms inflicted on tribal communities by the repudiated 
policy of allotment by restoring tribal lands to tribal ownership.
II. Implementation of the Claims Resolution Act
    The Cobell Settlement was approved with finality on November 24, 
2012, following the exhaustion of appeals through the U.S. Supreme 
Court. Less than a month following final approval, the Department of 
the Interior established the Land Buy-Back Program for Tribal Nations 
and published an Initial Implementation Plan. The Department released 
an Updated Implementation Plan in November 2013, which incorporates 
suggestions and responds to comments received during government-to-
government consultations conducted from January to March 2013.
    In recognition of the size and importance of the Settlement, 
Secretary Salazar established the Buy-Back Program in the Office of the 
Deputy Secretary. The Department also established an Oversight Board, 
chaired by the Deputy Secretary, to ensure senior level attention, and 
to facilitate accountability and coordination across the Department. 
Included among the members of the Oversight Board are the Solicitor, 
the Assistant Secretary-Indian Affairs, the Director of the Bureau of 
Indian Affairs, and the Special Trustee for American Indians. The Buy-
Back Program Manager is responsible for leading and coordinating the 
efforts of the various offices and bureaus with responsibility for 
assisting in implementing the Program. The Program Manager reports 
directly to the Deputy Secretary and meets regularly with the Oversight 
Board.
    During the past year, the Department has focused on establishing 
procedures, processes, and the necessary infrastructure to effectively 
and efficiently implement the Buy-Back Program. Interior is fully 
utilizing the expertise, services, and systems within the Department, 
especially in the Bureau of Indian Affairs and the Office of the 
Special Trustee for American Indians. We are gaining significant 
efficiencies by automating and centralizing the land acquisition 
processes. Significant outreach, mapping and mineral evaluations have 
been completed or are ongoing at a number of locations. The Department 
utilized the expertise of the Appraisal Foundation, an independent-
third party authorized by Congress to issue national appraisal 
standards and appraiser qualifications, to review the planned appraisal 
methods, and we have adopted the recommendations of the Foundation.
    The Department will implement the Program in a flexible manner and 
continue to update its approach to reflect lessons-learned, best 
practices, and tribal involvement.
    We have made progress over the last year in preparing to implement 
this unique and massive effort. We have discussed much of the progress 
in past public announcements and calls with tribal leaders. Through 
this process, we have:

<bullet> Communicated with 50 tribes (28 with jurisdiction over the 
        most fractionated reservations).

<bullet> Met with 9 tribes at or near their reservations.

<bullet> Published an initial implementation plan which has been 
        revised in response to consultation with affected tribes.

<bullet> Established capabilities, systems, and relationships to award 
        cooperative agreements.

<bullet> Created and published cooperative agreement guidance and award 
        templates in close coordination with tribal leaders and legal 
        representatives.

<bullet> Began to evaluate nine cooperative agreement applications.

<bullet> Awarded a cooperative agreement to the Oglala Sioux Tribe, 
        which has jurisdiction over the Pine Ridge Reservation (one of 
        the most fractionated reservations).

<bullet> Obtained review of the Program's appraisal methodology by The 
        Appraisal Foundation (TAF).

<bullet> Completed mass appraisal efforts on two reservations, 
        resulting in fair market values for thousands of fractioned 
        tracts.

<bullet> Completed direct appraisals for tribal priorities at one 
        reservation

<bullet> Developed capabilities to create, print, mail, and scan 
        landowner purchase offers at a substantial scale.

<bullet> Completed parcel mapping for 18 locations.

<bullet> Launched a substantive website, www.doi.gov/buybackprogram, to 
        provide information about Program, especially for tribes and 
        individual landowners.

<bullet> Hired 42 full-time employees and gained access to contractor 
        staff for mapping, land research, and database support.

<bullet> Expanded our Trust Beneficiary Call Center to answer questions 
        and register ``interested sellers.''

<bullet> Engaged in regional consultations and other tribal events, 
        including: Minneapolis (January 2013); Rapid City (February 
        2013); Seattle (February 2013); Coalition of Large Tribes 
        (COLT) Meeting (February 2013); Tribal Land Staff Conference, 
        3rd Annual (April 2013); Gathering of Nations (GON) Powwow 
        (April 2013); Affiliated Tribes of Northwest Indians (ATNI) 
        Meeting (May 2013); Landowner Trainings at Cheyenne River, 
        Rosebud, and Pine Ridge (May 2013); COLT Meeting (June 2013); 
        National Congress of American Indians (NCAI) Mid-Year 
        Conference (June 2013); Montana-Wyoming Tribal Leaders Meeting 
        (July 2013); Tribal/Interior Budget Council (TIBC) Meeting 
        (July 2013); United Tribes Leadership Summit (September 2013); 
        and ATNI Mid-Year Convention (September 2013).

    We have also established important policies such as purchase 
ceilings on each reservation to ensure that each affected tribe can 
benefit from the program and also set minimum payments for land and 
mineral interests.
    We recently published a solicitation to work with tribes with more 
fractionated reservations that is open now through March 14, 2014. 
Tribes with jurisdiction over these reservations are encouraged to 
submit cooperative agreement applications or expressions of interest to 
participate in the Program. We will continue to review applications on 
a rolling basis. By using this approach, tribes will help determine the 
timing and sequencing of Program implementation. And the Department 
will also consider other factors, such as degree of ownership overlap, 
geographic diversity, appraisal complexity, tribal interest and 
capacity, and cost and time efficiency.
    Tribal leadership and involvement are crucial to the success of the 
Program. The Department hopes to enter into cooperative agreements with 
many tribes to implement the Program through a federal-tribal 
partnership, which will promote tribal sovereignty, minimize 
administrative costs, and improve overall Program effectiveness and 
efficiency. The Department has worked actively with tribes and has 
incorporated their valuable feedback into Program processes and 
policies. The Program benefits greatly from the open dialogue, 
questions, and interactions with tribal leaders and landowners.
    Tribal leaders have overwhelmingly expressed the desire that the 
Department expend the Land Consolidation Fund on as many reservations 
as possible. Although the Land Consolidation Fund is substantial, it is 
unlikely to have sufficient capital to purchase all fractional interest 
across Indian country. The Department's Plan seeks to bridge the 
potential gap between the expressed desires of tribal leaders and the 
available funds by establishing flexible purchase ceilings to purchase 
interests at as many locations as possible. Flexible purchase ceilings 
are intended to achieve broad use of the Fund and ensure that it is not 
expended in only a limited number of locations. The Department will 
minimize administration costs (capped at 15 percent) to maximize the 
acres consolidated.
III. Conclusion
    The Claims Resolution Act has provided a unique opportunity for 
Interior and tribes, working together with substantial resources, to 
solve a long-standing and serious problem. The Program ultimately will 
strengthen tribal sovereignty by transferring lands to tribes to spur 
economic development and unlock the potential of tribal lands. As we 
move forward together, we will strive to implement the program in a 
fair and equitable a manner that maximizes the use of funds to 
consolidate tribal lands through voluntary purchases from allottees. We 
appreciate the Committee's interest in the Program and look forward to 
tailoring the implementation to meet the unique needs of each Tribal 
Nation.

    The Chairwoman. Thank you, Deputy Assistant Secretary.
    I am going to turn to my colleague. One of the reasons we 
are having this hearing is my colleague and I were traveling in 
Montana this summer, and he requested that we have this 
oversight hearing. So I am going to let him ask the first set 
of questions.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. First of all, thank you, Madam Chair. I 
appreciate your flexibility.
    Thank you for being here, Lawrence, and for your testimony. 
Before I get started, I would be remiss if I didn't welcome, on 
the next panel, the Honorable Alvin Not Afraid, Jr., Treasurer 
of the Montana Wyoming Tribal Council, and the Honorable Grant 
Stafne, who is a Councilman of the Assiniboine and Sioux 
Tribes. We are very honored to have two Native American leaders 
and a bunch more in the audience who are here today.
    Mr. Roberts, who do you have the cooperative agreement 
with?
    Mr. Roberts. The Oglala Sioux Tribe.
    Senator Tester. And they are where?
    Mr. Roberts. South Dakota, Pine Ridge Reservation. And that 
reservation comprises approximately 10 percent of the 
fractionated lands.
    Senator Tester. How many tribes have you done consultation 
with?
    Mr. Roberts. We had three consultations across the Country 
at five different locations in terms of the initial 
implementation plans. So there was a consultation in Rapid 
City, there was one in Seattle, there were a couple of others, 
at least one other location. And then we have met with 
approximately 30 to 40 tribes on implementing the individual--
--
    Senator Tester. Individually you have, or who has?
    Mr. Roberts. The program manger, John McClanahan, has met 
with those tribes, and his employees.
    Senator Tester. And they have taken information during the 
consultation process and gotten back to those tribes?
    Mr. Roberts. Yes, most of those conversations have been, I 
would say, I guess I wouldn't say consultation in that it is 
specific to that tribe's reservation and how we are going to 
implement the program, so it is not the broader consultation 
policy-wise. Those were done with regard to the implementation 
plan but they have held individual meetings to work with tribes 
to say, okay, what are the priorities for this reservation, 
where do you want us to expend dollars.
    Senator Tester. So if I were to ask you what 
recommendations came out of Fort Belknap, you could tell me?
    Mr. Roberts. I couldn't tell you right here off the top of 
my head.
    Senator Tester. But you could tell me?
    Mr. Roberts. I could go back. I could probably talk with 
staff and provide something to you, yes.
    Senator Tester. I would love to have that information. I 
will have my staff get hold of you on that. I don't want to put 
you with a bunch of work, but one of the problems that I am 
hearing about is the fact that there hasn't been a lot of 
consultation. I know there was one in Billings, because I was 
at it. It was big, it was broad-based, there was a lot of folks 
there. And it was a good starting point. But then you have to 
get down and talk to the tribes. That is what is really 
important. You are saying you have done that.
    You have an office in Billings, right, for this explicit 
purpose?
    Mr. Roberts. We have a BIA office in Billings.
    Senator Tester. It was set up for the land buy-back?
    Mr. Roberts. Yes.
    Senator Tester. About 10 folks in it?
    Mr. Roberts. I don't know that there are 10 folks there.
    Senator Tester. But close to that?
    Mr. Roberts. Close to that, yes.
    Senator Tester. What is their outreach plan? Do they have 
an outreach plan?
    Mr. Roberts. Yes, and we could provide that to you, 
Senator.
    Senator Tester. Okay, good, because I am hearing from the 
tribes they are not doing much outreach.
    Mr. Roberts. Okay.
    Senator Tester. Just to let you know that.
    How much of the $1.9 billion does the Department think is 
going to go to administration?
    Mr. Roberts. Our goal is to spend less than what Congress 
identified in the legislation.
    Senator Tester. How much is that?
    Mr. Roberts. Three hundred and eighty-five million dollars.
    Senator Tester. Okay. And you had said that the Under 
Secretary had said that the success of this program is going to 
be determined by the tribal leaders. I agree, by the way. I 
think that is a fair statement to make.
    I just want to say, there is a real opportunity here to do 
some solid consultation and do some incredibly good 
communication. It has to be done by people that are as good as 
you are. And visit with these tribes and find out what is going 
on. And let them help you set this program up.
    Now, there are certain parameters, for example, you 
probably know, I was in agreement with the tribe on. But as 
long as you communicate where the differences are, I think that 
is important. On the other side of the coin, I think there is 
information they are going to bring to the table that you need 
to be successful. And in the end, I can tell you I have been 
contacted by almost every tribe in Montana, if not, I will say 
almost, because I can't say for certain every one of them have 
contacted me, and have said, we want to be a part of this 
process and we want to play a big role in this process. And we 
think we can do it cheaper administratively.
    Mr. Roberts. And that is music to our ears, because that is 
what we are looking at, is how can we implement the program as 
broadly as possible. So we have heard from tribes, especially 
those tribes that have the top 40 reservations of fractionated 
interests, basically saying, when are you going to get to us.
    Senator Tester. Good. Last question. I don't mean to cut 
you off, but I have another hearing and I am already 10 minutes 
late. Right now, if you were going to do an appraisal process 
on the Northern Cheyenne Reservation in Montana, who would do 
it?
    Mr. Roberts. It would depend on the cooperative agreement. 
What we would do is talk with the tribe and we would see 
whether that was something that they would implement or wanted 
to implement as part of a cooperative agreement. Otherwise, it 
would be the Office of Special Trustee and the appraisers 
there.
    Senator Tester. And you are going to have a cooperative 
agreement with every tribe, every tribe that has fractionated 
land?
    Mr. Roberts. Every tribe that may want a cooperative 
agreement. Some tribes may not want a cooperative agreement.
    Senator Tester. Okay. Thank you very much. I apologize to 
the folks who will be on the next panel. I will submit some 
questions.
    Thank you very much, and thank you, Madam Chair.
    The Chairwoman. Thank you, Senator Tester. Just to continue 
on this line of questioning, obviously there is an issue of 
time and money here, given the statute allowed for that money 
to be spent over a 10-year period of time, one year that has 
already elapsed. Do you have goals as far as that allocation of 
resources, even if they are just internal goals? So we don't 
end up in year nine actually losing the money and having it go 
back into the Treasury?
    Mr. Roberts. Yes, there is a broad goal of spending a least 
half of the fund before 2016, or through 2016, essentially, so 
that we are making progress. So I think at this point we are 
moving forward, we have our first cooperative agreement. We are 
moving forward in terms of sending out offers. We hope those 
offers will be accepted by the end of the year.
    The Chairwoman. What is the range of that settlement? The 
range, value-wise, of that settlement?
    Mr. Roberts. Of which settlement?
    The Chairwoman. The one you were just talking about.
    Mr. Roberts. You mean sending out purchase offers?
    The Chairwoman. Yes.
    Mr. Roberts. With regard to Pine Ridge, I believe that we 
have appraised approximately 3,000 parcels, approximately 3,000 
interests we have appraised. So those will be going out. What 
we have done is we have created an automated system where those 
offers will go out to all of the individuals that have 
interests in those fractionated parcels. The Oglala Sioux Tribe 
will then be conducting outreach with those individuals. They 
will have a certain period of time to decide whether to accept 
that offer. If the offer is accepted and they send that back 
into the Department, that money is then immediately transferred 
into the Individual Indian Account, and then that parcel or 
that interest is immediately transferred in the tribe's name. 
So the acquisition aspect of it is almost fully automated.
    The Chairwoman. Okay. My point is, though, that is 
probably, what, certainly not more than several hundred million 
dollars, right, of wrapping up that particular phase?
    Mr. Roberts. I think the purchase ceiling for Pine Ridge is 
approximately $125 million.
    The Chairwoman. Okay. So my point is, if you are saying 
somewhere around $2.8 million, $2.9 million you want to have 
spent by 2016, and this is the first offer, what happens if 
individuals aren't willing to sell? What is the process there?
    Mr. Roberts. We will have to look at that on sort of a case 
by case basis. Because there may be situations where people are 
not willing to sell for a particular reason and we will need to 
work closely with tribal leadership and the community to see 
what those reasons are. It may be timing, it may be that those 
individuals don't have good information or it may be that 
members don't want to sell, and that is completely their 
choice. If they don't want to sell, then we would have to look 
at other tribes and other reservations where they may have more 
interested sellers.
    The Chairwoman. And you are not expecting changes to the 
law, you are not asking us for any help there.
    Mr. Roberts. Not at this point. Because the ink basically 
dried last year, so we have been focusing on trying to ramp up 
and work closely with tribes. We haven't discussed any changes 
to the law.
    The Chairwoman. I guess why we are here today is to say we 
are concerned about the shortness of time, and to drill down on 
how much the first year is about establishing the process.
    Mr. Roberts. Right.
    The Chairwoman. And what that process really entails versus 
all the complexity there is to appraising, communicating.
    Mr. Roberts. Yes.
    The Chairwoman. Getting offers out, getting offers 
responded to, making the final purchase. The complexity of that 
seems to be pretty significant. So we are very concerned about 
the timing and the allocation.
    Mr. Roberts. I think we will have a better sense of things 
as we move along this year. I think while we have announced our 
first cooperative agreement and we are sending offers out this 
year, we are close with a number of other tribes on cooperative 
agreements. And as we implement it, I think we are going to see 
where we can achieve cost savings and where we can streamline 
things and where there might be hiccups in the road that we 
hadn't anticipated.
    The Chairwoman. So if we were to, if this committee was to 
schedule another oversight hearing, say, at the mid-point next 
year or late spring, May, June timeframe, you would expect that 
you would be telling me about five or six or seven different 
settlements that have occurred?
    Mr. Roberts. I would expect at least that we would be 
moving forward with some of the, I would say a handful of 
reservations with the largest fractionation issues. So I would 
expect that by spring or summer of next year, we will have a 
better sense as to how things are unfolding and where we are 
headed.
    The Chairwoman. Is your philosophy the largest amounts of 
fractionated, or how are you approaching it?
    Mr. Roberts. We have heard from tribes through our 
consultations that it is important to get to as many 
reservations as possible. And there are 150 of those. So while 
we have been working with the Oglala Sioux Tribe and other 
tribes, we are also working with, for example, the Makah Tribe, 
which has a very limited number of fractionated interests. It 
is not within the top 40. So the top 40 tribes comprise 
essentially 90 percent of the fractionated interests.
    So we need to focus on those top 40, but that doesn't mean 
that we are not going to focus on those other tribes that are 
not the top 40 tribes. We think there is value in trying to 
work with all tribes to implement the program, so it is not 
just the top 40 focus.
    The Chairwoman. Then how do you want to look at the 
metrics? Because you could either do it by land or you could do 
it by number of tribes. But if you are saying you really want 
to focus on those top 40, but leave some time and energy to 
these other instances, you would assume that next year you 
would have to make a significant dent in those 40.
    Mr. Roberts. I think a key metric is putting out offers. I 
think that is a key metric to seeing how we are moving in terms 
of success, how many cooperative agreements we have had and how 
many offers we have put out there to individuals. I think that 
will sort of track to see how we are progressing. That will 
give some input back to us in terms of if those offers aren't 
being accepted, why is that.
    And it may be, we have heard through tribal consultations 
that there have been some individuals who have said, and I 
certainly don't blame them for this, but they have basically 
said I will never sell my individual interest. This is the only 
tie that I have to my grandmother or my father or my great 
grandmother, and I don't care how much money you give to me, I 
am not getting rid of that interest. That is completely 
respectable. But if that is the case in terms of when we go to 
a different reservation in terms of why that community isn't 
selling, then we know that we are not going to be able to 
accomplish results there, and we will have to move to other 
reservations.
    The Chairwoman. And again, I think what we are trying to 
get at here today is the complexity of this challenge and not 
to uncover what are those challenges to that complexity. So 
that again, we spend another year and have not moved 
significantly on that list of 40, or the ancillary list, and 
thereby run out of time and have money reverted back.
    Again, I think what we should do is make sure that the 
agency is establishing some metrics, because I think part of 
our job as an oversight entity is to understand what metrics 
you are using, to make sure we are accomplishing this task. So 
you have put a couple of interesting ideas on the table today, 
the 2016 number and spending half of the resources by then.
    But we will want to definitely assess and cover your 
measurements that you are establishing, so we can have a more 
transparent process about this.
    And to my colleague's point about the communication and 
cooperation, I don't know on this particular settlement if it 
was a major factor, but I am sure we are going to hear from the 
next panel that that is a key element when you are dealing with 
hundreds of individuals, thousands of individuals. Obviously 
the communication with the tribe itself, is that not a key 
component?
    Mr. Roberts. It is absolutely a key component. Part of 
these cooperative agreements that we are working on, the reason 
that it takes some time is that we are not using a cookie 
cutter approach. We know that one size does not fit within 
Indian Country, one size does not fit all. There will be broad 
parameters and there will be some things that are relatively 
standard in each cooperative agreement. But there are other 
things where a tribe may want to do not only outreach, but 
maybe they want to go into the appraisals and maybe they have 
the capability to do the appraisals cheaper than we can.
    So we need to tailor the cooperative agreements to each 
tribe as well.
    The Chairwoman. So you mean the distinction is not just 
about getting the tribe to help in the communication to 
members, it is in the actual----
    Mr. Roberts. It may be broader than that.
    The Chairwoman. Why can't it be more cookie cutter? Why 
can't you say, this is what is working, and encourage other 
tribes to do it, and then give prioritization to those tribes 
that are actually ready and able to help you? Because those are 
the fastest agreements that you are going to get done.
    Mr. Roberts. Well, we want to work with all of the tribal 
communities where there is the issue. Some tribes may not want 
to implement the program at all. They may want to say, 
Department of Interior, you go ahead and run it, it is not our 
job, Congress gave it to you.
    The Chairwoman. But in that instance, why would you bother 
sending out the appraiser at that point in time? Why wouldn't 
you go say, okay, let's go send appraisers on these programs 
where tribes have already agreed people are anxious to be 
cooperative? You still might run into individuals who don't 
want to settle. But you are going to come a lot farther along 
in the process.
    Mr. Roberts. I don't disagree.
    The Chairwoman. And then leave the tough, thorny things, or 
the ones where you are driving 100 percent, leave those to a 
later point in time.
    Mr. Roberts. We may do that. But there are issues, I guess, 
with, let's say there is a tribe within the top five. Let's 
say, for example, it was a tribe within the top five that 
comprised, let's just make something up, like 10 percent of the 
problem. And they were basically saying, Interior, we want you 
to implement the program. I don't know whether putting off 10 
percent of the issue later on down the road, we may never get 
to that.
    So I think what we have heard in our consultations and 
individual meetings with tribes is somewhere along the lines of 
what the committee has heard, which is tribes are enthusiastic 
about the program.
    The Chairwoman. I am sorry, they are or are not?
    Mr. Roberts. They are enthusiastic about the program. And 
tribes are basically saying to the Department, let's move more 
quickly let's move fast, we think that this is a great program. 
And what we have done is we have basically said, great, along 
the lines of what you said, Chairwoman, in terms of let's 
identify those tribes that are most enthusiastic. We have sent 
out a notice in the Federal Register asking for tribes to send 
in either a letter of interest or a cooperative agreement to 
signify that they want to be affirmatively within the program. 
So that is one of the ways that we are moving forward as well.
    The Chairwoman. It just seems to me that that is a key 
indicator, that relationship. It seems to me what we will hear 
from the next panel, we will see what their thoughts are on 
that, that that is because people have created a, whatever you 
want to call it, a global picture of what they are trying to 
achieve economically, that the tribe has. So they are willing, 
maybe in certain instances, to have a specific mission that 
might be tied to their location, growth pressures, 
opportunities, resource management, resource acquisition. 
Things that are, again, a well-established vision.
    And those areas where there isn't that vision, I would just 
imagine that you are also going to find lower down in the 
individual ranks probably less information and certainty as 
well. I would suspect you would run into a lot of uncertainty 
about whether to sell or not to sell.
    I see you are saying, this is a big holding and we want to 
get rid of it. To me, giving priority to those things that we 
can move quickly. So we definitely will have another oversight 
hearing in a year and check in on this. We are almost in this 
compounded, compounded, compounded situation where the original 
policy on termination, and then assimilation, compounded by 
then the process of mismanagement of trust resources, 
compounded by the Cobell settlement, then compounded by 
opening, now you actually have to get it implemented.
    So it is not as if just we are implementing the Cobell 
settlement. We are trying to refocus years of history here onto 
the right track of self-governance and economic opportunity. So 
we just want, now that the settlement is actually here and 
agreed upon by even the courts, that we actually achieve it. I 
guess we would say that if that is the parameter, given the 
2010 Act, and we fail to meet it, and somehow that money 
reverted back to the Treasury, it would be one more compounding 
of a bad situation.
    So that is why the expediency and understanding of the 
metrics, and the oversight. So we will look forward to having 
you back as the implementation continues.
    Mr. Roberts. Thank you.
    The Chairwoman. Thank you.
    So we will turn to our next panel of witnesses, to also 
comment on the oversight and implementation of the land buy-
back program. We are joined today by three tribal members: the 
Honorable Timothy Greene, Chairman of the Makah Tribal Council, 
Neah Bay, Washington; the Honorable Alvin Not Afraid, Jr., 
Treasurer of the Montana-Wyoming Tribal Leaders Council, who 
was recognized by my colleague, Senator Tester, and the 
Honorable Grant Stafne, of the Assiniboine and Sioux Tribe of 
the Fort Peck Reservation from Montana.
    Welcome to you all. Mr. Greene, I hear congratulations are 
in order for the Makah Tribe football team, on becoming the 
State champs in the 1B division for the second time in three 
years. Congratulations on that. Thank you for being here, and 
we will start with you.

  STATEMENT OF HON. TIMOTHY J. GREENE, CHAIRMAN, MAKAH TRIBAL 
                            COUNCIL

    Mr. Greene. Madam Chairwoman, thank you. I am pleased to be 
here today. My name is Timothy J. Greene, I am the Chairman for 
the Makah Tribe. I am pleased to testify before you today on 
our experience with the Department of Interior and the land 
buy-back program.
    I would like to say that fractionated land has been a high 
priority of many leaderships of the Makah Tribe. So it is 
something that even before this program came about, it is an 
interest that our tribe took in our lands. I can't commend our 
realty department enough, Dale Denny and her staff of three 
people that work on these issues and keep it on our plate. They 
have done a marvelous job of staying on top of the information 
and looking forward as they were tracking the Cobell settlement 
and the developments that happened through the years leading up 
to this program.
    In 2010, when we saw that this was coming down the pike, we 
began a lot of work within the community. We learned of the 
$1.9 billion that the Department was making available. We 
immediately began identifying lands within the reservation that 
were most highly fractionated. We did that work with not 
knowing where we would land at that time. We knew that we were 
a small tribe. We only have 7.8 percent of our lands that are 
allotted. So we are in pretty good shape, compared to a lot of 
other tribes. We have a total reservation base of 38,000 acres. 
So in comparison to some of the other testimony I am sure you 
will hear, we don't have some of the issues and problems that 
go on in other places. But yet this s a priority and has been a 
priority for our leadership for generations.
    So we sent out 1,158 letters to landowners on our most 
fractionated allotments to inquire if they would be interested 
in selling their fractionated interest in the Land Buy-Back 
Program. The Makah Tribal Council also directed its staff to 
rate all the allotments they would like to see purchased by the 
Makah Tribe. The Tribe made special outreach efforts by meeting 
with our senior citizens to obtain their input on land buy-back 
priorities.
    Tribal officials also met with the Neah Bay High School 
freshmen class to get their input on which allotments they 
would like to see purchased. Most of the consensus was to 
purchase land located at Tsooes, often referred to in the local 
community as Sacred Lands. The Makah Tribal Council met with 
John McClanahan during a consultation meeting in Seattle 
earlier this year. We found out at that meeting that the Land 
Buy-Back Program was going to buy back land with more than one 
owner. The Tribe began assembling the land information of the 
less-fractionated allotments ready for the Land Buy-Back 
Program. Then we prioritized these allotments for timber, 
economic development, cultural sites and highly fractionated 
parcels.
    We sent a letter and backup documentation to Mr. McClanahan 
and requested to be one of the pilot reservations for the Land 
Buy-Back Program. At this time, we have 14 allotments appraised 
and ready for the Land Buy-Back Program. This week, we will be 
having the first Land Buy-Back Program outreach meetings held 
at Neah Bay on the Makah Reservation and at the Muckleshoot 
Reservation. That is where our realty director, Dale Denny, is 
doing that as we speak. That is why she is not here with me 
today. Otherwise she would be here.
    The Makah Tribe continues to prepare for more allotments to 
be appraised for the Land Buy-Back Program. The Makah Tribe is 
receiving $2.55 million and the first 14 allotments were 
appraised at $1.5 million. The Makah Tribe has prioritized 12 
to 13 more allotments that we will be including for the Land 
Buy-Back Program.
    We are very appreciative for the Department of Interior's 
Land Buy-Back Program. Our experience thus far with this new 
program is that it has been operating smoothly with little 
complications for us.
    Thank you again for the opportunity to testify before you 
today. I am pleased to answer any questions that you might 
have.
    [The prepared statement of Mr. Greene follows:]

 Prepared Statement of Hon. Timothy J. Greene, Chairman, Makah Tribal 
                                Council
    Madam Chairwoman and Members of the Committee, I am Timothy J. 
Greene, the Chairman of the Makah Tribal Council of Neah Bay, 
Washington. I am pleased to testify before you today on the experience 
of the Makah Tribe with the Interior Department's Land Buy-Back 
program.
    The Makah Tribe learned in 2011 that the Interior Department was 
making $1.9 billion in funding available for a Trust Land Consolidation 
Fund. The Makah Tribe immediately began identifying the most highly-
fractionated land on the Makah Reservation.
    The Tribe sent out 1,158 letters to landowners on our most 
fractionated allotments to inquire if they would be interested in 
selling their fractionated interest in the Land Buy-Back Program. The 
Makah Tribal Council also directed its staff to rate all the allotments 
they would like to see purchased by the Makah Tribe. The Tribe made 
special outreach efforts by meeting with our senior citizens to obtain 
their input on land buy-back priorities. Tribal officials also met with 
the Neah Bay High School freshmen class to get their input on which 
allotments they would like to see purchased. Most of the consensus was 
to purchase land located at Tsooes, often referred to as Sacred Lands.
    The Makah Tribal Council met with John H. McClanahan during a 
consultation meeting in Seattle, Washington earlier this year. We found 
out at that meeting that the Land Buy-Back Program was going to buy 
back land with more than one owner. The Tribe began assembling the land 
information of the less-fractionated allotments ready for the Land Buy-
Back Program. The Tribe prioritized the allotments for timber, economic 
development, sacred lands and highly fractionated parcels. We sent a 
letter and backup documentation to Mr. McClanahan and requested to be 
one of the pilot reservations for the Land Buy-Back Program.
    At this time, we have 14 allotments appraised and ready for the 
Land Buy-Back Program. This week, we will be having the first Land Buy-
Back Program Outreach meetings held at Neah Bay on the Makah 
Reservation and at the Muckleshoot Reservation administrative building.
    The Makah Tribe continues to prepare for more allotments to be 
appraised for the Land Buy-Back Program. The Makah Tribe is receiving 
$2.55 million and the first 14 allotments were appraised at $1.5 
million. The Makah Tribe has prioritized 12-13 more allotments that we 
will be including for the Land Buy-Back Program.
    The Makah Tribe is very appreciative for the Department of 
Interior's Land Buy-Back Program. Our experience thus far with this new 
program is that it has been operating smoothly with little 
complications.
    Thank you again for the opportunity to testify before you today. I 
would be pleased to answer any questions that you might have.

    The Chairwoman. Thank you, Chairman Greene.
    Mr. Chairman Not Afraid, Jr., thank you for being here.

  STATEMENT OF HON. ALVIN NOT AFRAID, JR., TREASURER, MONTANA-
                 WYOMING TRIBAL LEADER COUNCIL

    Mr. Not Afraid. Thank you, Chair. I will try and be as 
brief as possible.
    Again, the Chairman of the Crow Tribe, as well as the 
Chairman of the Fort Washakee Indian Reservation send their 
apologies for not coming to testify. They had emergencies, I 
believe it was family, but they send their apologies for not 
making it.
    To begin with, tribes may never see an opportunity like 
this one to address the fractionated land problem, the damage 
done to the Tribes with the Dawes Act of 1887 that created this 
situation in the first place, as we are all aware. Tribes have 
become more professional and also competent land managers, but 
often lack the financial resources necessary to buy back lands 
lost to fee patent status and fractionated interests.
    Tribes at the local level are best suited to obtain long-
term solutions to these consolidated issues. But the current 
plan by the DOI will simply make it a take it or leave it offer 
and move on to the next possible purchase. This will leave the 
problem unsolved and leave untold numbers of places where some 
or all of the respective individual Indian account holders 
refuse to sell by accepting DOI's one-time offer in the mail.
    If the settlement funds are invested at the reservation 
level and tribal land management capacity is increased, the 
result would be that jobs and economic development at the 
reservation where it most urgently is needed with longer term 
benefits for all the tribes, rather than the mere $75 or more 
for each interest. For some, it is virtually nothing. As a 
tribe, we should not squander this opportunity. Congress should 
intervene and not allow the Department of Interior to spend 
$1.9 billion in 10 years. The tribes' land management and 
acquisition capacity should instead be bolstered. Tribes could 
be put in a position to be making money and not just spending 
it by acquisition.
    I didn't come before you to come up with complaints. I come 
before you to say that the tribes can handle this, we have 
solutions. Tribal land management capacities can and should be 
increased. Proportional shares of the settlement funds should 
be provided to tribes to manage the funds, and should be 
earning interest as soon as possible.
    Tribes should be afforded the capacity to succeed in their 
efforts to buy their lands back, and every obstacle should be 
removed, whether it be by promulgating or creating policy to 
expedite this endeavor. Tribes should be provided access to 
TAMS, which is the Interior's current record software, being 
that if we were doing outreach we should have access to that 
data base. If we don't have access to that date base, how do we 
know the landowners, other than someone coming in and saying, 
hey, I got this letter in the mail, we would like to sell our 
land.
    The burdensome and complex cooperative agreement mechanism 
should be replaced with something such as a 638, although we 
understand that the ruling does not call for a 638, the 
agreements can be mirrored as such to promote self-
determination, to promote accountability and transparency.
    In closing, why not give the tribes the money and audit the 
hell out of us? I seriously believe that is the avenue to take, 
because the tribes could do it a lot cheaper, and at the same 
time, the outcome we can produce. Earlier you stated we do need 
to create laws and so forth. I believe you are right, because 
how can we implement a plan when there is no bylaws, policies 
and so forth governing how we are going to do this.
    A prime example whether on pro or con against the 
Obamacare, look at these initial stages, where that is going. 
That is an image that we can take into account for 
circumventing the problems that are happening with this buy-
back program. It is all new. But yet the tribes know best as to 
facilitating, whether it is language barriers, cultural 
barriers, even professional barriers. Because again, it was 
stated before, some will not sell their land. We understand 
that.
    But I guarantee you that with a government to Government 
relationship, things would run a lot smoother. Sure, you can't 
have the whole pie and eat it. We understand that. But work 
with us. Consultation has happened. At the same time, the 
feedback was not really the feedback that we were looking for, 
such as why not give us this, why not give us that. The Crow 
Tribe does have a purchasing program. Fort Belknap Tribe has a 
purchasing program. Fort Peck also has a purchasing program 
which tribes utilize their own resources to purchase those 
lands.
    Yet along the confines of the CFR and various bylaws, we 
plan to revert those to trust. Yet we are just kind of looked 
at as a red-headed stepchild.
    So again in closing, I would like to thank you for this 
opportunity to provide this statement on behalf of the Montana-
Wyoming Tribal leaders. Thank you.
    [The prepared statement of the Montana-Wyoming Tribal 
Leaders Council follows:]

      Prepared Statement of Montana-Wyoming Tribal Leaders Council
    Good afternoon. My name is Ivan Posey, and I currently serve as the 
Chairman of the Montana-Wyoming Tribal Leaders Council, an organization 
representing the Indian Tribes located within the Bureau of Indian 
Affairs (BIA) Rocky Mountain Region of Montana and Wyoming. I want 
thank you for holding a hearing on this very important subject.
    As you are aware, the Tribes of the Rocky Mountain Region are large 
land-based Tribes who have unique situations and priorities. Our Tribes 
carry broad responsibilities over vast Reservations in rural areas, 
often hundreds of miles from major metropolitan areas.
    Today we have opportunity to help tribes to become more self-
reliant and to promote economic development and increase land ownership 
for tribes in Indian Country, and to curb a small amount of the 
devastation caused by the Allotment Era. The Land Buy-Back Program can 
be and should be that vehicle, especially if Tribes are given the 
opportunity to administer their own programs. However, if the DOI and 
BIA is allowed to administer this program as it now intends to, we fear 
this program may become another ``hurry-up, hire, spend, and vanish in 
ten years'' program and will result in wasteful spending instead of 
wisely investing it and making it grow into a long term and sustainable 
program.
    One of our member Tribes, the Fort Belknap Indian Community has 
provided this Committee a brief outline, with a budget, of how the Buy-
Back Program can be administered efficiently and effectively at the 
local level, while promoting Tribal Self-Determination and fulfilling 
the Trust Responsibility to Tribes and individual Indians. Under this 
scenario, the Program will not disappear in ten years. Instead we will 
have a perpetual Program, which will provide us with a process which 
will, help us enhance Self-Determination. What we propose is simple: 
Tribes should be allowed to develop and administer their own Programs 
unique to the circumstances and conditions of each individual 
Reservation. Administrative costs should be passed on to Tribes or left 
available for land purchase.
    Tribal Leaders from our member Tribes have provided information at 
numerous sessions and meetings including those called by the Department 
of Interior (DOI) beginning in July 15th, 2011, in Billings, Montana 
and the concluding session in Seattle, WA on April 13th, 2013. Our 
leaders have consistently expressed the desire of our Tribes to 
administer their own Buy-Back Programs. All of the Tribes have 
reiterated that they have been utilizing their own Land Acquisition 
Programs for several decades and have expanded their respective land 
base by thousands of acres during this same period. In the time that 
has passed since 2011, Tribes could have completed many purchases but 
have been hindered by lack of funds. The process of allowing tribes to 
administer their own buy back programs makes complete sense since many 
have access to local appraisers and know the people from our 
communities.
    The Department of the Interior, since its appointment to administer 
the Buy-Back Program, has totally disregarded the wishes of our Tribes. 
Year after year, in program after program, the DOI and BIA continue to 
address the tribes with paternalistic attitudes, and the current 
approach to administering the Buy-Back Program is no different. Tribes 
are thwarted in their efforts towards self-sufficiency.
    The Department of the Interior has decided that it will keep the 
entire amount of money set aside for administrative costs. However, it 
has provided no information as to why the entire set aside is needed. 
There is no transparency or accountability to Tribes on how this money 
is being spent and no overall budget has ever been provided to the 
Tribes as primary stakeholders in the Buy Back Program. If the Tribes 
were provided the settlement funds, we would be rightfully be required 
to prove we were using and spending the funds appropriately. We believe 
that if Tribes are allowed to run Buy-Back Programs themselves, money 
can be saved, and ultimately used for additional land purchases, rather 
than administration.
    In the mid-seventies, Tribes began to contract the education 
department functions from the BIA. Prior to that the BIA was satisfied 
with sending tribal members to boarding schools and a limited number of 
members on to a two or four year colleges. Since the tribes began to 
contract this particular program, more students are enrolled in 
colleges and universities and many tribes have two or four year 
colleges on their reservations including the Aaniih Nakoda College at 
Ft. Belknap, Salish Kootenai College at Flathead, Chief Dull Knife at 
Northern Cheyenne, Little Big Horn at Crow, Blackfeet community 
College, Stone Child at Rocky Boy Reservation, Wind River Tribal 
College on the Wind River Reservation, and Fort Peck Community College.
    Tribal success in administering former federal programs is now 
widely known. Some of our Tribes have exercised their rights to Self-
Governance under the Self-Determination Act. Others are operating a 
wealth of programs on their own Reservations that were formerly 
operated by the BIA. Overall, Tribes have demonstrated that 638-
contracting under the Self-Determination Act, ensures that services are 
provided to Indian beneficiaries in a manner that is specific to each 
Reservation's needs and conditions. Decisions are made locally. In 
addition, more administrative costs are spent locally, hiring local 
people to carry out these important functions.
    Now is the time that Tribes should be given the opportunity to 
manage this Program like they have with education and other programs 
under the Self-Determination Act. In ten years they will have a 
prosperous and functional Land Acquisition Programs that will last.
    I would be also like to add that the efforts of Elouise Cobell 
remains in the forefront of this issue and I would like to take a 
moment to recognize her efforts in bringing these important matters to 
the attention of the Federal Government. The courts have ruled that 
there was mismanagement of trust assets and the government has an 
obligation, through treaties and executive orders, to correct these 
wrongs. I ask the committee to please hear our concerns and address 
them for the betterment of all Indian Country.
    Thank you for your time and consideration. I'm happy to answer any 
of your questions.

    The Chairwoman. Thank you. You certainly are your name, 
sir. Thank you for your testimony.
    Councilman Stafne?

          STATEMENT OF HON. GRANT STAFNE, COUNCILMAN, 
         ASSINIBOINE AND SIOUX TRIBES OF THE FORT PECK 
                          RESERVATION

    Mr. Stafne. Good afternoon. I want to thank Chairwoman 
Cantwell and the Committee for holding today's hearing. Working 
with this committee and the interior Department, Indian tribes 
are committed to ensuring that the $1.9 billion allocated to 
the trust land consolidation fund is wisely and fully expended 
in the land buy-back program.
    I have learned more in these last few minutes than I have 
since the inception of the buy-back program. I would like to 
know where our cooperative agreement is. We handed this in on 
August 20th.
    My name is Grant Stafne. As stated earlier, I am a member 
of the Fort Peck Tribal Executive Board. Over the past 20 
years, I have worked in virtually every aspect of Indian land 
acquisition for the BIA, specializing in real estate 
acquisition and disposal and management. This year, I followed 
the path of my parents, the late June Shields Stafne and my 
father, A.T. Stafne, who is the current chairman of our tribes, 
and also my uncle, Caleb Shields, whom many of you know, and 
was elected to the tribal council.
    When I left Federal service, I was a deputy superintendent 
of trust services at Fort Peck Agency. I then became my tribe's 
director of the land buy-back program. In a little over a year, 
the Fort Peck Tribes purchased or acquired over 10,000 acres of 
fee land, which is non-Indian land, using tribal funds. I want 
to point out that even though the land we reacquired was taken 
from our tribes under the Homestead laws, for little or no 
compensation, when we bought the land back we paid the non-
Indian sellers fair market value.
    Interior's land buy-back program has the potential to 
reduce the devastating loss of Indian lands that began over 125 
years ago when Congress enacted the Allotment Acts in 1887. In 
its 35 years of existence, the Allotment Act robbed Indian 
Country of over 90 million acres of Indian land, Indian-owned 
lands, and made reservations such as ours checkerboarded with 
tribal land, allotted land as well as fee land.
    In implementing the land buy-back program, the Interior 
Department has already made unilateral and troubling decisions 
without consulting Indian tribes. The program is off to a bad 
start. The Department must not put its interests first and the 
interests of Indians and tribes second. That would be too 
reminiscent of Federal Indian policies of the past, policies 
that resulted in eradication of the American bison and 
indigenous languages, the removal of Indian children and the 
taking of Indian lands, all policies to deal with the Indian 
problem.
    I encourage this Committee and Congress to learn the 
lessons of the past. The buy-back program should not be defined 
by what is easiest for the Federal trustee to administer, it 
should be about correcting a great injustice done to Indian 
tribes and honoring the Nation's trust responsibility to Indian 
tribes in the 21st century.
    Our recommendations for the Department's land buy-back 
program are simple. First, the Department must engage in 
meaningful consultation with tribal governments and individual 
Indians on every affected reservation. Now in order for tribal 
consultation to be meaningful, it must respect tribal 
priorities of purchasable lands. But it must also include a 
clear implementation schedule, purchase ceiling amounts, 
mineral valuations and the appraisal processes.
    Interior published a draft scope of work which appears to 
invite tribal participation. But the Department has rejected 
the view that the Indian Self-Determination Act, the Act's 
model 638 contract and well-established and familiar 
implementing regulations apply to the land buy-back program. 
This is nonsense. Use of this simple contract or a variation of 
the 638 contract for the buy-back program will promote 
efficiency and expediency, because Indian tribes are 
comfortable and familiar with it.
    Meaningful tribal consultation should also inform 
reservation mapping and land research. Interior mus provide 
tribes a written implementation schedule under the scope alert. 
We recommend that Interior begin implementing the program on 
the most highly fractionated reservations. The Department 
should also work out mutually acceptable implementation plans 
with tribal governments within 90 days and be held to such 
timeframes, the same timeframe as under the Self-Determination 
Act.
    Interior must also be transparent and provide tribes and 
this committee with quarterly statements of agency expenditures 
of program funds, including administrative funds set aside by 
the Department, so that tribes and the committee are assured 
that the vast majority of funds are expended on land buy-backs. 
The Department arbitrarily determined that appraisals have a 
nine month shelf life, rather than five months. This does not 
serve Indian tribes or Indian landowners.
    The Department has also delegated two appraisers the 
discretion to determine which reservation lands are purchasable 
and which are not. This is a decision best left to the tribal 
governments. The Federal Trustee, not an appraiser for hire, 
should solicit tribal views first. Our views on buy-back 
priorities should prevail.
    The Department has also made arbitrary decisions we find to 
be fundamentally unfair to Indian landowners. This includes 
denying landowners the right to appeal appraisal values, 
excluding real estate improvements and valuation, prohibiting 
landowners from reserving mineral interests and engaging in 
reservation-wide appraisals prior to determining landowner 
interests. These unilateral decisions undermine the program and 
should be reconsidered.
    Second, whether through requiring the Department to modify 
the settlement agreement or through legislation, Congress must 
ensure that the land buy-back program fulfills its mission, 
achieving substantial land consolidation to allow the tribes 
the ability to better manage our lands and to bring a small 
measure of redress to the loss of 90 million acres of Indian 
lands. Under the Fort Peck Allotment Act, roughly two-thirds of 
our original 2.1 million acres were allotted or opened for 
homesteading. Now over half of our reservation is held in fee 
simple status, mostly by non-Indians. It is inconceivable that 
true land consolidation can occur on a reservation like ours 
without the ability to purchase all interests on a reservation, 
fee or fractionated. For the buy-back program would be more 
than a vehicle to close individual Indian money accounts, IM 
accounts, Congress must act now to correct this oversight.
    Third, Interior has made the process of entering into 
cooperative agreements complex, resulting in delays. There must 
be a baseline parameter in every scope of work, with simplified 
forms. There is no need for tribes to submit standardized 
agency forms which are mostly irrelevant to implementation of a 
buy-back program.
    In conclusion, it is time to end Federal paternalism once 
and for all. Indian tribes were once fully independent and 
self-sufficient. We can be again. We are working hard to 
overcome two centuries of mostly harmful and destructive 
Federal policies which fractionated our land and tore the 
fabric of our tribal communities. The Trust Land Consolidation 
Fund represents opportunity and promise to reverse decades of 
misdirection and mistreatment. The Interior Department must 
operate the program in partnership with tribes, consistent with 
its obligation as our trustee to best realize and achieve the 
program's important goals.
    [The prepared statement of Mr. Stafne follows:]

 Prepared Statement of Hon. Grant Stafne, Councilman, Assiniboine and 
               Sioux Tribes of the Fort Peck Reservation
    Good afternoon. I would like to thank Chairwoman Cantwell and the 
Committee for holding this hearing. You have before you the ability to 
ensure that the $1.4 Billion allocated to the Trust Land Consolidation 
Fund is spent for the benefit of Indians and their Tribes. On behalf of 
the Assiniboine and Sioux Tribes of the Fort Peck Reservation, I thank 
you for your interest in this important subject.
    My name is Grant Stafne. I am a member of the Fort Peck Tribal 
Executive Board, the governing body of our Tribes. Over the past 20 
years I have worked in virtually every aspect of Indian land 
acquisition, primarily in local and regional real estate positions with 
the Bureau of Indian Affairs.
    After graduating from Wolf Point High School and Haskell Indian 
Junior College, now Haskell Indian Nations University, I began a 20-
year career with the Bureau of Indian Affairs specializing in real 
estate acquisition, disposal, and management. I began my career as a 
Realty Clerk in Acquisition & Disposal (A&D) at the Fort Peck Agency. I 
was promoted to Realty Specialist in A&D first at the Fort Belknap 
Agency, and later the Rocky Mountain and Eastern Regional Offices in 
Billings, Montana, and Nashville, Tennessee. When I left from federal 
service I was the Deputy Superintendent of Trust Services at the Fort 
Peck Agency. Following federal service, I went to work for my Tribes as 
the Director of the Fort Peck Land Buy-Back program. In a little over a 
year that I served as the Tribal Land Buy-Back Director, our Tribes re-
acquired over 10,000 acres of land on our Reservation using Tribal 
funds. Incidentally, even though that land was taken from the Tribes 
and granted to non-Indians under the Homesteading laws for little or no 
compensation, we paid the sellers fair market value to reacquire it.
    This year I followed in the path of my parents, June and A.T. 
Stafne, and my uncle Caleb Sheilds, and ran for election to the Tribal 
Executive Board.
    Interior's Land Buy-Back Program, using Trust Land Consolidation 
funding, has the potential to reduce the devastating loss of Indian 
lands that has persisted since this Congress first began enacting 
Allotment Acts in 1887. Sadly, in its 35-year existence, Allotment 
resulted in the loss of 90 million acres of Indian owned lands. There 
is no doubt that a program to restore tribal land bases and improve 
federal management of trust resources is beneficial and long overdue.
    However, because the Buy-Back Program was developed by the 
Department of the Interior unilaterally, and without any Tribal 
involvement whatsoever, it has been designed to benefit the government 
first, and Indian beneficiaries second. That very notion is reminiscent 
of the federal Indian policies of yesterday: policies that resulted in 
the eradication of the American bison, the removal of Indian children, 
and the taking of Indian lands; policies that were intended to benefit 
the government in dealing with ``the Indian problem.''
    Almost 40 years ago, Congress declared that the new federal Indian 
policy would be one of Self-Determination, as President Nixon called 
it, ``a new era in which the Indian future is determined by Indian acts 
and Indian decisions.'' In order to comply with Congressionally-
mandated policy, the Department should, at the very least, engage in 
meaningful consultation with Tribes and individual Indians on every 
affected Reservation. That consultation must necessarily pertain to the 
implementation schedule, purchase ceiling amounts, mineral valuations, 
and the appraisal processes for each Reservation.
    Unless Congress acts now to require meaningful consultation, it 
appears that the Interior Department intends to use the Buy-Back 
Program as nothing more than a vehicle for closure of Individual Indian 
Money Accounts. Surely Congress intended more when it appropriated 
nearly two billion dollars to the Land Consolidation Fund; surely 
Congress intended the Program to achieve substantial Tribal land 
consolidation in order to bring a small measure of redress for the loss 
of 90 million acres of Indian lands.
    Under the Fort Peck Allotment Act, roughly two-thirds of the 
original 2 million acres of Tribal lands were allotted or opened for 
Homesteading. Now, over half of our Reservation is held in fee simple 
status, mostly by non-Indians. It is inconceivable that true land 
consolidation can occur on a Reservation like ours without the ability 
to purchase of all interests. Congress and Interior must act now to 
address this oversight through modifications to the settlement 
agreement and corresponding legislation, if necessary.
    The Department has published a draft scope of work under the 
Program that appears to invite Tribes to participate in the various 
phases of implementation such as outreach, land research, valuation, 
and acquisition. This suggests that despite the lack of consultation, 
Interior nevertheless values Tribal participation. However, the 
Department insists that the Self-Determination Act, the model contract 
set forth in the Act, and the implementing regulations do not apply to 
the Buy-Back Program. The rejection of the Self-Determination Act as a 
vehicle for implementing the Program is a reversion to a time when 
federal Indian policy was driven by paternalism and patronage. Instead, 
the model Self-Determination contract and the implementing regulations 
should be used as guides for contracting with Tribes under the Buy-Back 
Program. Both Tribes and Interior have familiarity with the Self-
Determination contracting process, which would promote efficiency and 
expediency.
    Regrettably, the process being implemented by the Department for 
Tribes to enter into Cooperative Agreements under the Program is 
unnecessarily complex and has resulted in a multitude of delays. The 
Department has established no baseline parameters with regard to the 
tasks set forth in the Scope of Work, resulting in lengthy and 
unfocused back-and-forth negotiations. In addition, the Department is 
requiring Tribes to submit SF-424s which are overly complex and largely 
irrelevant to implementation of a program designed by buy back lands 
for a Tribe.
    Additionally, other tasks contained in the Department's Scope of 
Work, such as mapping and land research, have commenced without any 
Tribal participation. Moreover, the implementation schedule under the 
Scope of Work has not been made public. Based on the initial 
Implementation Plan, Tribes assumed that the Program would be 
implemented first at the most highly fractionated Reservations. 
However, Interior has developed an implementation schedule without 
consultation with Tribes and without a release of criteria for the 
schedule. For Fort Peck, Interior has only acknowledged receipt of our 
completed application but has provided no information on where we are 
on the implementation schedule. This lack of communication is alarming 
particularly for a Reservation like ours with significant mineral 
development and potential. Not only has Interior left us in the dark 
about the implementation schedule, they have provided us with no 
information on how minerals will be valued.
    The Department has made numerous critical policy decisions 
concerning the implementation of the Buy-Back Program without Tribal 
input and with what appears to be a complete disregard for trust 
responsibility the Department is obliged to administer by law. This 
top-down and paternalistic management style fundamentally undermines 
Congress' intent in appropriating money for the Program.
    For example, the Department has arbitrarily determined that 
appraisals used under the Program will have a 9-month shelf life. 
Although appraisals are normally valid for 12 months, the Department 
has provided no information as to why this shorter timeframe has any 
benefit to the Program or Indian beneficiaries. This decision limits 
co-owner purchases, which are authorized by federal law. Moreover, if a 
sale cannot be completed in 9 months, which is quite plausible in our 
experience, additional costs will be incurred to update the appraisal.
    In addition, the Department has given appraisers discretion to 
determine which Reservation lands are purchasable and which are not. 
These decisions will apparently be made without consultation by the 
United States as the trustee, or by the Tribes as an ultimate 
beneficiary. This grant of authority outside the trustee-beneficiary 
relationship is an affront to Tribal sovereignty, a breach of the Trust 
Responsibility, and is fundamentally unfair to individual Indian 
landowners. Other arbitrary decisions by the Department that may result 
in fundamentally unfair treatment of the Indian landowners include: 
denying landowners the right to appeal appraisal values; excluding real 
estate improvements in valuation methods; prohibiting landowners from 
reserving mineral interests; and engaging in massive, Reservation-wide 
appraisals prior to determining landowner interest.
    Finally, the Department has closely guarded the fiscal activities 
of administering the program. Rather, than operating the Program 
transparently, the Department has refused to report on the expenditures 
of the administrative funds set aside under the Program. We know that 
the Department is spending money, even though not a single acre of land 
has been purchased under the Program. Without any knowledge of how much 
money has been spent, how can we be assured that there will be enough 
money to administer the Program throughout its life? We do know that 
the Department has determined that Indirect Costs will be capped at 15 
percent for Tribes that enter into cooperative agreements, even though 
Tribes have negotiated indirect cost rates for all federal funding. We 
can only hope that the government is as concerned about its own 
spending as it is with ours.
    I will conclude by saying that while Congress struggles to reach 
agreement on how to fund our government, Indian Country is 
disproportionately affected. Conditions in Indian Country remain among 
the worst in the country. Indians continue to rank at the bottom of 
every social and economic indicator: unemployment, income, infant 
mortality, life expectancy, chemical dependency, suicide. . . .
    It should not be forgotten that these conditions are a direct 
result of federal policies over the last two centuries; polices that 
promoted paternalistic treatment of Indians and a system of political 
patronage. One of those policies resulted in the loss of 90 million 
acres of Indian held lands. The Buy-Back Program cannot give full 
redress for that loss or its effects, but the Trust Land Consolidation 
Fund does have the potential to fulfill that to which its name aspires.
    I urge the Committee to demand meaningful consultation by the 
Department with Tribes and Indian beneficiaries and require the 
Department to execute the Self-Determination laws and policies 
prescribed by Congress.
    Thank you for the opportunity to share our perspectives and 
concerns. I would be happy to answer your questions.

    The Chairwoman. I want to thank all of the witnesses for 
their testimony and start with some questions.
    But one just generally first, so we can get some idea for 
the record, in general, why is this so important to your tribe 
as it relates to what you are trying to achieve? What is the 
challenge economically without being able to have the 
settlement and reclaim some of this land? What is your vision 
or strategy for that? Any of your interests that you represent.
    Mr. Stafne. The interest I represent is 2.1 million acres 
of our reservation is held by non-Indians. We would like the 
settlement to be opened up to purchase any land available 
within the exterior boundaries of our reservation, whether it 
be fee land or trust land. We would like the opportunity to buy 
our reservation back.
    The Chairwoman. And what percentage of your reservation 
does that represent, the 2.1 million acres?
    Mr. Stafne. It is 954 thousand that is held in trust right 
now. Roughly two-thirds of that is allotted and a third of that 
is tribal land. The remainder of it is fee land.
    The Chairwoman. Okay. Anything else from you, Mr. Chairman?
    Mr. Not Afraid. Thank you, Chair. You asked, if the tribe 
isn't involved, just to clarify the question. The question is 
that we as the tribe suffer if we are not involved? Or the 
repercussions?
    The Chairwoman. On one hand, the complexity of implementing 
this, but I am also trying to get people to understand for the 
record the importance of achieving it. You can certainly talk 
about failed policies of the past and why this program needs to 
be established. But my sense is there is also a very important 
economic interest at stake here, or a hope and economic 
interest that is moving toward more self-governance and self-
determination and one aspect of that is obviously getting the 
land back and being able to move forward on an economic outlook 
and agenda.
    Mr. Not Afraid. You are right, Chairwoman. You just drove 
the dagger home. What happened here, I can speak specifically 
of the Crow Reservation, within the Crow Reservation in the 
past, of mishandling or mis-use or what have you. Again, the 
intricate details per reservation are abundant. You have not 
only cultural impacts, you have social impacts. You have 
behavioral impacts. Again, without the tribe being the 
forefront, we are coming into a situation where the Government 
is going to see what is fit, the Government is going to say, 
this is what is best for you.
    That deters social improvement. That also deters economic 
development. And we as tribes, if you sat in our chairs and 
were governed, we are the most governed citizens of the United 
States. An example, going on a tangent here, but just to give 
you an example, look on the Crow Reservation, a law governing 
that you cannot consume alcohol. I was in the military and 
going overseas, fighting, being in the Marine Corps in the 
1990s, you should be entitled to certain things, such as 
alcohol, if you choose. I am not a proponent of alcohol, but 
the point I am trying to make is laws within the reservations 
are different than laws off reservation.
    Now, is that a right? Off reservation, if the U.S. 
Government said, no more alcohol, what happens? So the point I 
am trying to make is, we are being governed at the same time by 
laws that don't fit best for our people. And when rules are 
promulgated and made at the upper echelon, by the time it 
trickles down to each local agency, it doesn't fit the bill. 
And yet we see so much inconsistency, such as treaties being 
violated.
    I don't want to go there and play the victim. I am a big 
boy, I say hey, let's work together, what can we do? So the 
thing is, if treaties are being violated, Congressional acts 
are being violated that were geared toward the Crow Tribe, 
where do we stand? Because again, this implementation of this 
land buy-back through consultation, there were times when the 
Indian Land Consolidation Act was represented by the Office, 
but yet, oh, no, we aren't going to use that, oh, no, we can't 
use that.
    Example, competent land on the Crow Indian Reservation. 
That is where lands held in trust are considered competent with 
five or less owners. Those owners have the right to negotiate 
and engage in any type of lease on their own behalf without the 
bill's approval. It is filed at the Bureau of Indian Affairs. 
But if they choose to lease their land out at $2 an acre, below 
the Government's threshold of $2.50, that is their prerogative.
    Where I am going with this is, if they buy an interest, 
those landowners then have no right, because of the Office 
lease statutes.
    The Chairwoman. Let me get Chairman Greene in here. You 
obviously have had a more proactive approach that seemed to 
work well. Is that because it was a smaller amount and it was 
easier? Or do you think the level of dialogue you had in the 
community worked?
    Mr. Greene. I think, Madam Chairwoman, the smaller amount 
definitely does help. I would like to thank my fellow tribal 
leaders for their comments also, and thank you for the 
congratulations that you send to our football team. I will be 
sure to carry that back.
    The smaller land base, the smaller amount of fractionation 
that we have in our community does help. The fact that our 
leadership, through generations of councils, have made this a 
priority and have kept up on the information I think also 
helped put us in the position we are here today. And definitely 
the hard work of the staff that I had mentioned.
    I think to answer your question that you asked earlier, in 
general, why does this need to happen, I think what is 
important, at least from Makah's perspective, is that this land 
is usable. What that means is different for each tribe, whether 
it is usable for economic development, whether it is usable to 
protect the environment, whether it is usable to protect 
cultural sites, both usable and manageable. Because the way 
that these lands sit right now, with the high fractionation of 
these allotments, it is not usable and it is not manageable. So 
I think that is, in general, the overarching goal that I think 
tribes would like to get to, Madam Chair.
    Thank you.
    The Chairwoman. And you mentioned this dialogue that you 
had with the community in surveying. Did you have any 
challenging areas that you had identified that you could work 
within the program, but you had landowners just refusing to 
sell?
    Mr. Greene. We do run into that also. There are landowners 
that for reasons mentioned, whether it is their only connection 
to their great grandmother or great grandfather, whoever it may 
be, we run into those same issues. We do also have a lot of 
non-tribal members that own land on our reservation lands that 
are difficult to find and track, and to find those people and 
those contacts. That has been a challenge and a burden. It 
takes a lot of resources, a lot of hard work to try to keep up 
with some of that information.
    The Chairwoman. My question is, do you think you have been 
successful because some of those tribal members realize there 
is a larger goal at hand and that is persuasive? So all of this 
communication, all this tribal vision, all of that plays an 
important role in the communication?
    Mr. Greene. For Makah, absolutely. I think that definitely 
plays a role. It is something that the community has been aware 
of and through the different leaderships, the message has been 
brought out to try to fix those issues.
    I think there is a general belief in the community and a 
broader vision that these lands are usable and manageable and 
that the public can enjoy them and get benefit from them.
    The Chairwoman. Councilman Stafne, how long do you think it 
would take Fort Peck to spend the $80 million just in 
purchasing fractional interests on your reservation?
    Mr. Stafne. Madam Chair, that depends on the appraisals and 
if OST or their office is willing to give us appraisals right 
away. We are ready, willing and able to do this as soon as 
possible.
    I also want to point out that it was stated earlier by 
their Department, that buy-backs, they are still purchasing, 
whether it be undivided trust interests or undivided fee 
interests or total fee interests, they stated that they were 
going to reimburse us for the tracts of land that we already 
purchased. And now it comes to find out that they are not going 
to reimburse us until the cooperative agreement is approved. 
Why don't they approve it, then? We have been waiting on this 
since August. We would really like to have a response.
    The Chairwoman. Something tells me you will get one after 
today.
    Mr. Stafne. I thank you.
    The Chairwoman. The things that you outlined, many of the 
things, I should say, that you outlined, the issue of 
transparency, the 90 days of updates, the funds spent, just 
basic information so that people can track it I think is 
important. I think those are fair things. I think the issues 
you mentioned about the appraisal process, in and of itself, 
those are challenging and sticky issues that I have no idea 
what the formal response of the agency is. But it makes it, we 
should have clarity on this. Obviously not every piece of land 
is the same, and some obviously do have mineral rights to them 
and value. So we should have some clarification on that part.
    I am certain the agency probably did look at 638 and 
decided against it. I guess the agency now has to show that 
they can make this successfully work or else you will have 
people calling for a different process to go through this.
    I am curious, so when you entered your communication 
agreement with the agency, you said it was finalized or 
presented in August. How long had you been dialoguing with the 
agency?
    Mr. Stafne. Through working with our attorney, it was her 
prodding that finally found out that we were the first one in 
the Nation to hand in a completed contract for agreement. Now 
it is my understanding that there are eight. And it has 
recently been told that there is actually an approved one.
    I find it highly ironic that they approved one right before 
we came and testified before you.
    Also, the 15 percent administrative fees that they are 
withholding, that is pretty much, giving 15 percent to someone 
that created the problem in the first place, give it to the 
tribes so we can buy our land back.
    The Chairwoman. Thank you. Mr. Chairman Not Afraid?
    Mr. Not Afraid. Just to add on that last statement, the 
tribes, upon implementation of the current systems, such as we 
talked about OST appraisals, the Crow Tribe is currently, with 
its own enrolled members, running our appraisal program, which 
is a 638 from OST. So to streamline a lot of things, we are 
equipped in a lot of aspects, going down to the MOA, we are 
currently waiting, we did submit one. I have a time line here. 
I should know it off the top of my head.
    As of July, the land buy-back kickoff in January, there 
were initial meetings, question and answer session. There was 
an assessment, development plan and outreach, implement survey 
in January of 2013. January to June, we had pre-offer outreach. 
April to June, field technicians available for land appraisals. 
July to September, identified notaries and provided outreach 
activities. July to September, post-offer outreach. September 
15th to September 30th, provided outreach activities, assessed 
offer master list.
    And then we had possible second waive offers, those were to 
be discussed. And our chairman has recently submitted a letter 
to Mr. McClanahan dated December 9th, which was just recent. 
That was in regard to our memorandum of agreement, and we 
included a budget with that to administer. Again, we can 
maximize the dollar. As the Bureau itself knows, we can do more 
with less money. So the tribe is taking that approach with this 
budget, do more with less money in the aspect of administering.
    The Chairwoman. Well, it seems, I am definitely going to 
have to consult with the Vice Chairman on this, on how we 
continue to communicate our interest in seeing more metrics and 
more measurements of the program. We will certainly have a 
follow-up hearing on this subject.
    It seems that Chairman Greene, working without asking 
permission, he started consolidating that information of his 
tribe and then presented that, juxtaposed as some of the, let's 
get a formal communication. It is almost, I don't want to 
overstate, if I am getting it wrong, please correct me, but it 
seemed like you did that and then said, okay, now we want to 
get an agreement with you, but you already had these things 
done.
    I am not saying that whatever that is, maybe that argues 
more for 638, if nothing else. Because here is somebody that 
got their act together and did it on their own and then 
presented, almost packaged with a bow on it, here you go, now 
let's have a formal agreement and here is what we want. Again, 
the acreage may have been a smaller amount, so it was easier to 
do. Then the consultation went easier.
    But clearly, we are hearing loud and clear that tribal 
communities are very concerned about the slow implementation of 
the buy-back program and that we have to have more oversight 
and more metrics and more implementation. We will be monitoring 
this very, very closely.
    Your testimony has been very helpful. There is a lot here 
to follow up on with the agency. We will hold the record open 
for two weeks in case my colleagues, if anybody else wants to 
submit information for the record or has questions of you, so 
that we can have that. We will certainly be asking the agency 
for more information as well.
    But again, thank you for being here and for the 
representation you are providing for your various tribal 
entities. We appreciate the leadership.
    We are adjourned.
    [Whereupon, at 3:38 p.m., the Committee was adjourned.]
                            A P P E N D I X

          Prepared Statement of the Coalition of Large Tribes
Introduction
    The Coalition of Large Tribes (COLT) appreciates the Senate 
Committee on Indian Affairs' oversight of the Department of the 
Interior's implementation of the Land Buy-Back Program for Tribal 
Nations. COLT members will be among the most affected by the Program. 
Nearly all of our members have already been identified by Interior as 
having reservations with the most fractionated lands. In addition, COLT 
members make up seven of the top ten tribes with the most fractionated 
lands.
    COLT is concerned that recent Interior decisions in implementing 
the Program will ultimately diminish the success of the Program. 
Interior should follow the direction of the Cobell v. Salazar 
Settlement Agreement and the Claims Resolution Act of 2010, P.L. No. 
111-216, approving the Settlement, and work with tribes as partners to 
implement the Program.
    While the Cobell v. Salazar litigation concerned individual Indian 
interests, COLT members and a number of other tribes have significant 
interests in the success of the Land Buy-Back Program for Tribal 
Nations. The interests in lands purchased through the Program will be 
returned to tribal status and held in trust for the benefit of the 
tribes. In addition to other concerns, we need to ensure that the lands 
purchased will provide maximize benefits to the tribes.
    As Interior takes its first steps to implement this $1.9 billion 
program, COLT asks that the Committee take a close look at Interior's 
plan. COLT is particularly concerned with the process Interior proposes 
for entering into Cooperative Agreements with tribal governments to 
assist in the implementation of the Program. The Land Buy-Back Program 
for Tribal Nations is one of the largest Indian programs the Federal 
Government will undertake and it deserves close scrutiny by the 
Committee.
Large Land Base Tribes Have a Substantial Interest in the Program
    COLT was established in April 2011 to provide a unified advocacy 
base for tribes that govern large trust land bases and provide full 
service in the governing of their members and reservations. As a part 
of its mission, COLT closely monitored Interior's development of the 
Land Buy-Back Program for Tribal Nations. COLT members participated in 
tribal consultation sessions and filed comments during the development 
of the Program. COLT also worked closely with Interior in the 
development of a Cooperative Agreement template for tribes to assist in 
the implementation of the Program.
    As you know, the Program is the result of the settlement of the 
long-running Cobell v. Salazar litigation regarding the Federal 
Government's mismanagement of Indian trust lands and resources. On 
December 7, 2009, the parties to that litigation entered into a 
Settlement Agreement which included a $1.9 billion Trust Land 
Consolidation Fund. The Settlement Agreement was approved by Congress 
as a part of the Claims Resolution Act of 2010, P.L. No. 111-291, and 
ultimately finalized by the courts following the exhaustion of appeals 
to the U.S. Supreme Court on November 24, 2012. The Fund must be used 
within 10 years, by November 24, 2022.
    The $1.9 billion Trust Land Consolidation Fund will be implemented 
through Interior's Land Buy-Back Program for Tribal Nations. The 
subject of today's hearing. The Program will use the $1.9 billion in 
funding to purchase individual Indian fractionated interests in 
allotted lands, as well as to administer the Program and make payments 
into a scholarship fund intended to incentivize the sale of individual 
fractionated interests. Once purchased, the fractionated interests will 
be returned to tribal status and held in trust for the tribe on whose 
reservation the purchase was made.
    Thus, while the Cobell v. Salazar litigation and much of the 
Settlement Agreement concern mismanagement of individual Indian lands, 
COLT members and other tribal governments have a substantial interest 
in the successful implementation of the Land Buy-Back Program portion 
of the Settlement Agreement. First, we want to ensure that our members 
will be treated fairly if they choose to sell their lands. And, second, 
the more that fractionated interests are returned to tribal status, the 
better tribal governments will be able to develop and manage lands for 
the benefit of our tribal communities.
    Returning lands to tribal ownership through the Land Buy-Back 
Program will be a small but important step to address the long-standing 
effects of the Federal Government's failed allotment policies. Through 
the policy of allotment, beginning with the General Allotment Act of 
1887 (also known as the Dawes Act), 24 Stat. 388, until 1934, when 
allotment was repealed, tribal land areas had decreased from 138 
million acres to 48 million--a 65 percent reduction. As tribes with 
large land bases and a history of utilizing resources over large areas, 
COLT member tribes suffered the most from the Federal Government's 
policy of breaking up large tribal land bases.
Greater Tribal Involvement is Necessary for the Successful 
        Implementation of the Program
    Interior is unnecessarily restricting tribal involvement in the 
implementation of the Land-Buy Back Program for Tribal Nations. While 
everyone agrees that tribal participation is essential to the success 
of the Program, Interior has made a number of decisions that limit 
tribal involvement and will reduce the amount of fractionated interests 
in lands that are acquired. Moreover, the interests that Interior does 
acquire may not provide maximum benefit for the tribe involved. To 
address these issues and help to ensure the success of the Program, 
COLT asks that the Committee exercise its oversight role and seek 
changes in how Interior is implementing the Program.
    First, Interior is not fully utilizing existing tribal land 
consolidation offices. A number of COLT member tribes have well-
established and successful land consolidation offices. These offices 
have long been working pursuant to the Indian Land Consolidation Act, 
25 U.S.C.   2201 et seq., (ILCA) to reduce fractionation and address 
the effects of allotment. To ensure that tribes receive the maximum 
benefit from the Land Buy-Back Program for Tribal Nations, Interior 
should be working in partnership with these offices.
    In fact, the Settlement Agreement directs Interior to utilize these 
tribal land consolidation offices. Section F.1. of the Settlement 
Agreement requires that ``the Interior Defendants shall distribute the 
Trust Land Consolidation Fund in accordance with the Land Consolidation 
Program authorized under 25 U.S.C.   2201 et seq., any other 
applicable legislation enacted pursuant to this Agreement, and 
applicable provisions of this Agreement.'' Under ILCA, Indian tribes, 
not the Secretary, identify and make land purchases.
    Ultimately, the Claims Resolution Act also needed to provide 
authority for the Secretary, as a party to the litigation and 
Settlement Agreement, to make these land purchases. Subsection 101 
(e)(4) of the Act provides that, ``The Secretary may acquire, at the 
discretion of the Secretary and in accordance with the Land 
Consolidation Program, any fractional interest in trust or restricted 
land.'' Yet, this subsection's reference to the Land Consolidation 
Program reinforces the roles of tribes in the purchase of lands.
    The Land Consolidation Program, as defined in the Claims Resolution 
Act, provides a dual role for tribes and Interior in implementing the 
Program. Subsection 101 (a)(4) provides that the term ```Land 
Consolidation Program' means a program conducted in accordance with the 
Settlement, the Indian Land Consolidation Act (25 U.S.C. 2201 et seq.), 
and subsection (e)(2) under which the Secretary may purchase fractional 
interests in trust or restricted land.''
    Thus, both the Settlement Agreement and the Claims Resolution Act, 
through their reliance on ILCA, require significant tribal leadership 
and participation in the purchase of lands. As a result, Interior 
should be fully utilizing existing tribal land consolidation offices 
and providing a significant role for Indian tribes in the repurchase of 
tribal lands. Not only will these existing resources provide greater 
efficiency to the implementation of the Program, but the expertise of 
these offices will help to ensure the most beneficial lands are 
acquired.
    Second, Interior is discouraging tribal participation in the Land 
Buy-Back Program through an unduly bureaucratic and cumbersome 
application process for Cooperative Agreements. In the absence of ``638 
contracts'' to implement the Program, COLT actively sought the use of 
Cooperative Agreements and helped to negotiate an agreement template. 
However, in implementing these agreements Interior is discouraging 
tribal participation by making it difficult and burdensome to 
successfully apply for and complete a Cooperative Agreement. Given the 
need to complete the Program within 10 years and the number of tribes 
involved, an efficient and flexible process is needed for tribes to 
enter into Cooperative Agreements.
    COLT asks that the Committee investigate the process Interior is 
using for entering into Cooperative Agreements. Rather than using 
common methods used by Indian tribes and the Federal government to work 
in partnership toward a shared goal, such as a grant or contract, 
Interior decided to classify Cooperative Agreements for the Program as 
a ``financial assistance award.'' These ``financial assistance awards'' 
have resulted in Interior requiring a number of inefficient steps as we 
all try to jointly implement the Program.
    For example, Interior is applying the cumbersome federal 
procurement provisions of Office of Management and Budget Circular A-87 
(OMB A-87). Among other things, OMB A-87 requires tribes to develop 
detail cost estimates from three sources for supplies needed to 
implement a Cooperative Agreement under the Land Buy-Back Program. As a 
result, instead of researching land records and contacting tribal 
members willing to sell their lands, tribal staff are spending their 
time completing a cumbersome bidding process for computers and other 
typical office equipment needed to implement the Program.
    In another example, as a part of entering into Cooperative 
Agreements, Interior is requiring tribes to complete Standard Forms 
424, 424A, and 424D for the receipt of financial assistance. These 
forms, again, require overly detailed information and ask a number of 
questions that appear to be irrelevant to project implementation. 
Instead of directing tribes into generic Federal government application 
processes for ``financial assistance awards,'' the Program should be 
utilizing streamlined agreement and financing processes that allow the 
Federal Government and tribes to partner in the implementation of the 
Program.
    In another example, Interior is requiring tribes to advertise and 
select employees through a competitive application process even though 
everyone knows the jobs will be temporary. Appointments should be fast 
tracked based on the expertise needed to implement the Program quickly 
and efficiently.
    Meanwhile, Interior is providing little guidance as tribes attempt 
to navigate this cumbersome and bureaucratic hiring process. For 
example, Interior could be providing a set number of employees that it 
would be willing to fund for each task under a Cooperative Agreement 
based on reservation size, funding, and level of fractionation. Yet, we 
understand that some tribes have had to exchange hiring plans with 
Interior more than 5 times before Interior would clearly state how many 
staff positions they would fund.
    And, in another example, COLT understands that tribes are having 
difficulty finalizing Scope of Work documents for a Cooperative 
Agreement. Again, Interior has not provided guidance in the form of 
baseline parameters for the tasks set out in its Scope of Work 
Template. This has resulted in lengthy negotiations and exchange of 
documents before agreement can be reached. Moreover, because Interior 
is not fully utilizing tribal offices, tribes have been forced to 
engage in these lengthy discussions to implement only small parts of 
the overall Program.
    In each of these areas, Interior has established numerous 
requirements for tribal participation, yet has provided little guidance 
on fulfilling these requirements. This level of inefficiency and 
bureaucratic governance has COLT concerned that the Land Buy-Back 
Program for Tribal Nations will not achieve the full potential of the 
$1.9 billion available to consolidate tribal land holdings. The Program 
represents a significant opportunity for the Federal government and 
tribal governments to address some of the long-standing effects of the 
disastrous Federal policy of allotment. Rather than creating 
roadblocks, Interior must open doors to encourage tribal participation. 
Tribal participation is required by the Settlement Agreement and the 
Claims Resolution Act and is needed to ensure the success of the 
Program in tribal communities.
Tribes Must be Protected Under the Federal Tort Claims Act During 
        Implementing
    Cooperative Agreements between Interior and Indian tribes should 
provide tribal employees with coverage under the Federal Tort Claims 
Act. The Act provides a limited waiver of sovereign immunity allowing 
parties claiming to have been injured by negligent actions of employees 
of the Federal government to file claims against the government. The 
Act also provides authority for the Federal government to defend 
against such claims. Congress has extended authority under the Act to 
include tribal employees carrying out contracts, grants or cooperative 
agreements under a ``638 contract.''
    As tribes provide assistance implementing Interior's Land Buy-Back 
Program for Tribal Nations, our employees should be provided this basic 
protection against accidents and injuries to others that may happen on 
the job. For example, to conduct outreach to remote parts of our 
reservations, tribal employees will spend many hours on often 
substandard BIA roads. If an employee causes an accident while carrying 
out these duties, the Federal Government should provide protection 
under the Act.
    While COLT understands that Interior has decided that it cannot use 
``638 contracts'' to implement the Program, general contractors to the 
United States have been provided with coverage under the Act. Just as 
any other contractor working in pursuit of Federal goals would be 
covered, tribal employees should also be covered.
Additional Issues Likely to Affect the Success of the Program
    COLT is concerned that Interior is charging ahead without 
sufficiently considering the effect of a variety of issues on the 
success of the Program. We describe some of these additional issues 
below.

<bullet> Interior should be casting a wide net to certify and approve 
        contract appraisers to speed up implementation of this key 
        aspect of the Program.

<bullet> Appraisals conducted under the Program will expire after 9 
        months. Depending on how long it takes to accomplish a sale, 
        this may result in multiple appraisals being required for the 
        same property. Yet, current BIA practice is that an appraisal 
        is good for up to 18 months. To ensure that resources are not 
        wasted on multiple appraisals, the current BIA standards should 
        be used.

<bullet> COLT seeks a fair appraisal process. Interior is proposing to 
        use mass appraisals, but flexibility needs to be built into the 
        mass appraisal process. For example, on reservations with oil 
        and gas development, Interior must recognize that production 
        levels can vary across a reservation. Fractionated interest 
        owners should get an appraisal based on the best price for 
        their land and not a reservation-wide average. In addition, to 
        ensure that the appraisal and sale process is fair, Interior 
        should also provide a streamlined appeal process to contest an 
        appraisal or notice of sale.

<bullet> Interior must provide a higher minimum payment to promote the 
        sale of very small fractionated interests in land. Purchasing 
        these small fractionated interests provides the greatest 
        benefit to the greatest number of people. Success in 
        consolidating ownership in highly fractionated lands is also 
        very important to making tribal lands easier to manage and 
        develop. COLT sought a minimum payment of $500 for the sale of 
        a fractionated interest to ensure that these interests get 
        sold. Interior's decision to use $75 as its minimum payment 
        jeopardizes the success of the Program.

<bullet> Interior should provide individual Indians a right of first 
        refusal to purchase fractionated interests. In some cases, an 
        individual Indian may be in the best position to acquire 
        fractionated interests and put land to beneficial use. In other 
        cases, an individual may be able to save a family farm for 
        future generations. In addition, allowing for individual 
        Indians to purchases fractionated interests will spare some of 
        the Program's funding and will spread the benefits of the 
        Program over a larger area.

<bullet> Finally, tribal participation in the Program could also be 
        increased by allowing tribes to access the Trust Asset Account 
        Management System (TAAMS) and other federal data bases. 
        Limiting access to these databases will slow the Program down 
        and jeopardize the success of the Program. Interior should open 
        up access to TAAMS to every tribal contractor.

Conclusion
    COLT asks that the Committee investigate these concerns and seek 
necessary changes to the Program. While the Cobell v. Salazar 
litigation only concerned individual Indian claims against the Federal 
Government, Indian tribes have a significant interest in the successful 
implementation of the Land Buy-Back Program for Tribal Nations. Tribal 
interests were recognized in the provisions of the Settlement Agreement 
and the Claims Resolution Act provided an important role for tribes in 
implementing the Program. Indian tribes and Interior should be working 
in partnership, but Interior seems to have adopted a take it or leave 
it approach. We ask that the Committee seek changes to this approach to 
help ensure the success of the Program and the maximum benefit to 
Indian tribes.
                                 ______
                                 
   Joint Prepared Statement of Helen Sanders, Allottee and Jim Harp, 
    Chairman, Allottees Association and Affiliated Tribes, Quinault 
                              Reservation
    We appreciate the Senate Indian Affairs Committee conducting a 
nomination hearing for the Special Trustee for American Indians. We are 
very hopeful that this is moving in the direction of the continuation 
of the Office of Special Trustee (OST).
    Regarding the OST, we have a statement concerning a proposal to 
undo the progress that has been made for the many Indian beneficiaries 
across Indian Country for the past twenty years.
Proposed Indian Trust Asset Reform Act
    We oppose S. 3679.
    S. 3679 is a proposal by the Affiliated Tribes of Northwest Indians 
(ATNI). The legislation proposes to undo a program that is working 
efficiently and honestly in asset management and distribution of 
individual and tribal trust funds. S. 3679 mandates the following three 
errors listed below will plunge trust asset management into the abyss 
where it was lodged for decades and also raises the specter of new 
problems.
1. Abolition of the Office of Special Trustee
    The Office of Special Trustee (OST) was created in light of errors 
and
    mismanagement of federal trust brought to light in the case Cobell 
v. Kempthorne/Norton/Babbit/Salazar that was ultimately resolved in a 
negotiated settlement for $3.4 billion in 2009. The OST has proven that 
it can effectively deal with the complex accounting and distribution of 
assets in both individual and tribal trust accounts. S. 3679 proposes 
to abolish OST. This is a mistake. The OST is working and its 
operations have proven that the investment in its programs are well-
spent.
2. Turning Trust Fund Management over to Civil Service Employees
    The Act of 1994 which established the OST does not operate under 
the same requirements as the Bureau of Indian Affairs. 3679 Proposes to 
transfer trust fund management to civil service Employees in the BIA. 
Federal Civil Service personnel are employed because of their G-S 
level, not specifically because of their special competency to manage 
money and execute judicious investment strategies for the benefit of 
non-competent Indians. The transfer of responsibility from the OST to 
federal personnel without explicit requirements defining the unique 
talents and knowledge required for the assignment is a mistake.
3. Setting the Stage for Contracting Out Trust Services
    S. 3679 creates a mechanism whereby the Bureau of Indian Affairs 
can contract out trust services to tribes while leaving part of the 
program with the Bureau. The nation's more than 550 tribes and Native 
American communities do not possess the expertise to fulfill trust 
responsibilities at the highest level for the beneficiaries of the 
trust. The prospect of contracting out trust services fractionalizes 
and duplicates the efforts.
    S. 3679 provides for moving Individual Indian Money (IIM) accounts 
from the OST to tribes via the Bureau of Indian Affairs contracting or 
compacting with tribes for this duty. Contracting out trust services 
creates the real prospect of weakening trust responsibility and 
dramatically lessens protection for the individual Indian. The proposed 
proliferation of management tasks weakens rather than strengthens the 
program inherent in the federal trust doctrine.
    Contracting out trust services leaves only a skeleton staff and 
reduced funding of trust services to those tribes and individuals who 
do not enter into contracting or compacting agreements.
General Comments
    The United States government has legal obligations of trust 
responsibility both to tribes and to individual Indians. In particular, 
I call attention to the decision Mitchell, et al v. United States, 463 
U.S. 206, a landmark case. The U.S. Supreme Court ruled that the 
federal government has a fiduciary responsibility to the individual 
allottee or his or her heirs by maintenance of the value of the 
property, including funds, over time.
    S. 3679 has the potential to not only destroy a program that is 
working but also to cost more money. Presumably only a few number of 
tribes would contract or compact to take over trust services. Each 
tribe that does so, however, would request funding. Tribes and 
individuals whose funds remain with the Bureau of Indian Affairs would 
be served by a program with less funding.
    It is essential that fiduciary trust functions be operated 
separately from the other program duties of the Bureau of Indian 
Affairs and likewise from tribal duties. S. 3679 proposes to conflate 
fiduciary trust and non-fiduciary trust duties at both the federal and 
tribal level. This legislation will undo the resolution of the 
prolonged and costly Cobell case.
    If tribes want to move tribal trust funds ONLY from the OST to the 
BIA, we would support them, providing it is clear that Individual 
Indian Monies (IIM) would remain at the OST under the present 
management.
                                 ______
                                 
              Prepared Statement of the Oglala Sioux Tribe
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
        Prepared Statement of the Fort Belknap Indian Community
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
     Prepared Statement of Hon. John Berrey, Chairman, Quapaw Tribe
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 

*Response to the following written questions was not received before 
        the hearing's print deadline*

          Written Questions Submitted by Hon. Tim Johnson to 
                         Hon. Lawrence Roberts
    Question 1. In my home state of South Dakota, the Oglala Sioux 
Tribe was the first tribe to enter into a Cooperative Agreement with 
the Department of the Interior to implement the Land Buy-Back program. 
In mid-December, 2013, owners of fractionated land were given purchase 
offer packets to be completed in 45 days. The Oglala Sioux Tribe is one 
of the most fractionated reservations. How will the Interior work with 
the tribal land buy-back program to address issues that arise in the 
first venture of purchasing fractionated interests?
    Question 1a. Mr. Roberts, you stated that it is expected that 
hiccups and issues will arise in the start of purchasing fractionated 
interests. If solutions to problems are made to improve the program 
during this introductory phase, will the Interior re-extend purchase 
offers to those land owners who did not take offers due to unforeseen 
issues?
    Question 1b. Does the Interior have the ability to be flexible on 
the 45 day period timeframe that purchase offer packets are due?

    Question 2. During the December 11, 2013 hearing, the topic of 
administrative costs was discussed. Mr. Roberts you stated that it was 
the goal of the administration to spend less than the allocated amount 
to maintain the buy-back program. What will happen to the remaining 
funds?

    Questions 3. I have heard many concerns regarding the 15 percent 
cap for administrative costs for tribes entering into cooperative 
agreements. Legislatively, a 15 percent cap is not specified. In the 
Cobell Settlement Agreement it is stated that ``An amount up to a total 
of no more than 15 percent of the Trust Land Consolidation Fund shall 
be used for purposes [of implementing the Land Consolidation 
Program].'' The reading of this language does not specify that each 
tribe should have a cap of 15 percent, but that the cap of 15 percent 
is aimed at the total use of the Trust Land Consolidation Fund. How did 
the Interior decide to place a cap of 15 percent for administrative 
costs for tribes entering into cooperative agreements?
                                 ______
                                 
         Written Questions Submitted by Hon. Heidi Heitkamp to 
                         Hon. Lawrence Roberts
    Question 1. While the Cobell v. Salazar litigation was about 
mismanagement of individual Indian trust accounts and resources, Indian 
tribes have a lot to gain from the $1.9 billion Land Buy-Back Plan for 
Tribal Nations. After individual's interests in land are purchased, 
these interests and lands will be returned to tribes to hold 
consolidated tribal ownership and address some of the long-standing 
problems of allotment. Once lands are consolidated tribes will have a 
much easier time developing those lands to serve their communities. 
Given the significant tribal interests in the Program what has the 
Department done to ensure that the Buy-Back Program benefits tribes? 
And, what has the Department done to provide tribes with the 
opportunity to direct how the Buy-Back Program will be implemented on 
their reservations?

    Question 2. The Cobell v. Salazar Settlement Agreement and the 
Claims Resolution Act of 2010 said the Secretary shall purchase lands 
in accordance with the Indian Land Consolidation Act (ILCA) and the 
Land Consolidation Program which also incorporates ILCA. ILCA says 
tribes shall lead buy-back efforts on their reservations. Given the 
significant role ILCA provides tribes, is the Department following the 
law and providing tribes with leadership role in the Land Buy-Back Plan 
for Tribal Nations? I understand tribes can enter into Cooperative 
Agreements with Interior, but do these Cooperative Agreements provide 
tribes with leadership roles as the law requires?

    Question 3. I understand some tribes have found the negotiation 
process for a Cooperative Agreement to be unduly complex and 
burdensome. What is the Department doing to improve the process and 
quickly finalize these agreements so we can get people on the ground 
buying back land for tribes?

    Question 4. One of the Program's most important goals is to 
consolidate small fractionated interests. I understand the Department 
plans to include a base payment of $75 dollars in every offer to 
purchase fractionated interests in lands. The Department describes this 
payment as compensation for a land owner's time and expenses in 
responding to an offer. The Department makes clear it is not providing 
a minimum payment to help incentivize the purchase of small 
fractionated interests. To promote the sale of small fractionated 
interests and the overall success of the Program, tribes have 
recommended minimum payments of $500 for each fractionated interest. 
Why did the Department decide not to provide a minimum payment for 
small fractionated interests? What is the Department's plan if the $75 
base payment is ultimately too low to incentivize enough small 
fractionated interests to sell?

    Question 5. Indian energy development has been an incredible 
benefit to tribes across the country, including the Mandan Hidatsa and 
Arikara Nation located in my state. In such areas where minerals have 
high development potential, owners may be willing to sell their 
interest in a surface estate but unwilling to sell their interest in 
the mineral estate. However, on page A-2, the Department's Updated 
Implementation Plan states the Department ``will not make bifurcated 
offers to purchase surface and mineral interests separately because 
such purchases would not reduce fractionation.'' By consolidating 
interests in the surface estate, the Department would streamline 
approvals for right-of-ways, surface leasing necessary for the 
development energy resources, and energy transportation corridors. 
Wouldn't it be beneficial for the Department to reduce surface 
fractionation wherever it could and, particularly, where energy 
development is occurring?

    Question 6. Also on page A-2 of the Department's Updated 
Implementation plan, the Department states that it is ``considering 
including a minimum base payment for mineral interests in offers sent 
to landowners, in accordance with past Bureau of Indian Affairs (BIA) 
land consolidation activities.'' The tribes I have spoken with have not 
been provided information about a base payment for mineral interests. 
Will this minimum base payment be an incentive payment to promote the 
success of the Program, or merely compensation for an owner's time and 
expenses in responding to an offer? Will this minimum base payment be 
based on mineral appraisals? What will be the amount or the range for 
this minimum base payment?

                                  <all>

</pre></body></html>
